The SEC’s Implementation of and
Compliance with Homeland Security
Presidential Directive 12




                                                                March 31, 2011
                                                                Report No. 481


 The SEC’s Implementation of and Compliance with HSPD-12   March 31, 2011
 Report No. 481
                                                 1
                                                   UNITED STA.TES
                                 SECURITIES AND EXCHANGE COMMISSION
                                             WA.SHINGTON. D.C.        20:549


     0 .... '<:"'0 ..
, ..... ECTOR GENERAL




                                          MEMORANDUM
                                                  March 31,2011

                To:          Diego T. Ruiz, Executive Director, Office of the Executive Director
                             Jeffrey A. Risinger, Associate Executive Director, Office of Human
                               Resources
                             Sharon Sheehan, Associate Executive Director, Office of
                               Administrative Services
                             Thomas A. Bayer, Director, Office of Information Technology

                From:         H. David Kotz, Inspector General, Office of Inspector General   (O l~
                Subject:      The SEC's Implementation of and Compliance with HSPD-12,
                              Report No. 481

                This memorandum transmits the U.S. Securities and Exchange Commission
                DIG's final report detailing the results on our audit of the SEC's implementation
                of and compliance with HSPD-12. This audit was conducted as part of our
                continuous effort to assess management of the Commission's programs and
                operations and as a part of our annual audit plan.

                The final report contains 25 recommendations which if fully implemented should
                ensure the Commission's full compliance with the HSPD-12 directive. The
                respective offices concurred with all the report's recommendations. Your written
                response to the draft report is included in Appendix VI.

                Within the next 45 days, please provide the OIG with a written corrective action
                plan that is designed to address the report's recommendations. The corrective
                action plan should include information such as the responsible official/point of
                contact. timeframes for completing required actions, and milestones identifying
                how you will address the recommendations.




            The SEC’s Implementation of and Compliance with HSPD-12                        March 31, 2011
            Report No. 481
                                                            i
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our auditor during this audit.

Attachment

cc:     Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
        Luis A. Aguilar, Commissioner
        Troy A. Paredes, Commissioner
        Elisse B. Walter, Commissioner
        Jeffery Heslop, Chief Operating Officer, Office of the Chief Operations
          Officer
        Cristin Fair, Acting Deputy Director, Office of Human Resources
        Beth Blackwood, Assistant Director, Office of Administrative Services,
          Office of Security and Business Operations
        Lewis W. Walker, Deputy Director, Chief Technology Officer, Office of
          Information Technology




The SEC’s Implementation of and Compliance with HSPD-12                March 31, 2011
Report No. 481
                                                ii
The SEC’s Implementation of and Compliance
with Homeland Security Presidential Directive 12

                                   Executive Summary
Background. On August 27, 2004, President George W. Bush signed
Homeland Security Presidential Directive 12 (HSPD-12), Policy for a Common
Identification Standard for Federal Employees and Contractors. This directive
requires federal agencies to have programs in place to ensure that identification
issued by each agency to federal employees and contractors meets a common
standard. Those standards and technical specifications were set forth in Federal
Information Processing Standards Publication (FIPS) 201, Personal Identity
Verification (PIV) of Federal Employees and Contractors, which was initially
issued by the Department of Commerce’s National Institute of Standards and
Technology (NIST) on February 25, 2005, and revised in March 2006. On
August 5, 2005, the Office of Management and Budget (OMB) issued
memorandum M-05-24, Implementation of Homeland Security Presidential
Directive (HSPD) 12 -- Policy for a Common Identification Standard for Federal
Employees and Contractors (M-05-24), which provided implementation
instructions for HSPD-12 and FIPS 201.

The U.S. Securities and Exchange Commission (SEC) has implemented a
collaborative effort to comply with HSPD-12 among three SEC offices: the Office
of Information Technology (OIT), the Office of Administrative Services (OAS),
and the Office of Human Resources (OHR). OIT is responsible for overseeing
the implementation of the HSPD-12 program, assigning roles and responsibilities
as requested by OHR’s Personnel Security Branch management, and for
implementing technological solutions for the use of HSPD-12 for identification
and authentication to SEC logical information systems. OAS is responsible for
enrolling PIV credentials (also referred to as PIV cards or HSPD-12 badges)1 into
its physical access control system and providing temporary SEC-issued badges
while employees or contractors are awaiting receipt of their PIV credentials.
OHR is responsible for the most essential component of the SEC’s
implementation of and compliance with HSPD-12, which is sponsoring and
adjudicating the background investigation of an applicant. Further, OHR is
responsible for sponsoring the employee or contractor for a PIV credential,
adjudicating the results of the background investigation (including fingerprints),
granting reciprocity as applicable, and informing OIT and OAS that the employee


1
  A “PIV card” is defined as “[a] physical artifact (e.g., identity card, “smart” card) issued to an individual that
contains stored identity credentials (e.g., photograph, cryptographic keys, digitized fingerprint
representation) so that the claimed identity of the cardholder can be verified against the stored credentials
by another person (human readable and verifiable) or an automated process (computer readable and
verifiable).” FIPS 201-1, Appendix F, Page 73, http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-
chng1.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                             March 31, 2011
Report No. 481
                                                        iii
or contractor is eligible for access to SEC facilities and authorized technology
systems.

OMB M-05-24 provided multiple milestones for departments and agencies to
achieve in their implementation of HSPD-12. As of the date of this report, the
SEC has not met all of the milestones outlined in M-05-24. The SEC has
informed OMB, through its quarterly reporting, that it will complete the issuance
of PIV credentials (i.e., HSPD-12 badges) to all employees and contractors by
June 2011, integration of PIV credentials with logical access systems by
December 2011, and integration of PIV credentials with physical access control
systems by June 2011.

Objectives. The primary objective of the audit of the SEC’s implementation of
and compliance with HSPD-12 is to determine if the SEC is fully compliant with
HSPD-12 and the implementing standards and guidance. The OIG’s specific
audit objectives were as follows:

    •   Evaluate whether the SEC has adequate controls and the necessary
        processes and procedures to perform background investigations,
        adjudicate results, and issue credentials.

    •   Evaluate the roles and responsibilities for the HSPD-12 initiative among
        the various SEC offices involved in the process, including OAS, OHR, and
        OIT.

    •   Assess compliance with HSPD-12 and determine whether all the
        necessary equipment has been purchased to implement HSPD-12
        throughout the SEC.

    •   Evaluate whether the HSPD-12 processes and procedures are
        consistently applied throughout the SEC (i.e., at SEC headquarters and
        the regional offices).

Prior OIG Reports and Memoranda. Four prior OIG reports and memoranda
are relevant to this audit:

    •   OIG Report of Investigation No. OIG-544, OIT Contract Employees Given
        Access to SEC Buildings and Computer Systems for Several Weeks
        Before Background Investigation Clearance, issued on January 20, 2011,
        which contained four recommendations to strengthen management
        controls pertaining to contractor access to SEC facilities and information
        systems.
    •   OIG Inspection Report No. 434, Background Investigations, issued on
        March 28, 2008, which contained nine recommendations to strengthen
        management controls over OHR’s background investigation program.

The SEC’s Implementation of and Compliance with HSPD-12                 March 31, 2011
Report No. 481
                                               iv
    •   OIG Investigative Memorandum No. G-444¸Law Student Observer
        Program, issued on June 29, 2006, which contained three
        recommendations to strengthen management controls over OHR’s
        background investigation program, specifically for interns selected through
        the SEC’s Law Student Observer Program.
    •   OIG Audit Memorandum No. 39, Operations Center Building Security,
        issued on July 14, 2005, which contained three recommendations to
        strengthen management controls over building security at the SEC
        Operations Center located in Alexandria, Virginia.

Results. The OIG audit found deficiencies in nearly every aspect of the SEC’s
HSPD-12 program, as well as significant concerns about the SEC’s authority to
determine eligibility for access to classified information and the current process
for granting temporary access to SEC facilities.

We found that the SEC has missed virtually all the deadlines established by OMB
guidance for implementation of HSPD-12. M-05-24 required agencies to develop
a plan and begin the required background investigations for current employees
who did not have an initiated or successfully adjudicated investigation on record
by October 27, 2005. 2 Our audit found no formal documentation of any such
plan and, we were thus unable to confirm if the SEC ever satisfied this
requirement. M-05-24 further required agencies to verify and/or complete
background investigations for all current employees, excluding those who have
been employed by the federal government over 15 years, by October 27, 2007. 3
Our audit found that the SEC did not verify and/or complete background
investigations for all current employees, excluding those who have been
employed by the federal government more than 15 years, until March or April of
2009 -- approximately a year and a half after the October 27, 2007, completion
date required by M-05-24. Further, M-05-24 required, “For individuals who have
been federal department or agency employees over 15 years, a new
investigation may be delayed, commensurate with risk, but must be completed
no later than October 27, 2008.” 4 Our audit found that as of December 31, 2010,
the SEC has not verified and/or completed background investigations for 1,263
employees who have more than 15 years of federal government service.

M-05-24 also required agencies to develop a plan and begin the required
background investigations for all current contractors who did not have a
successfully adjudicated investigation on record by October 27, 2005. 5 Our audit
found that the SEC has not developed a plan commensurate with risk, for
completion of background investigations for all current contractors who do not
have a successfully adjudicated investigation on record. We also found that the

2
  OMB Memorandum M-05-24, Implementation for Homeland Security Presidential Directive (HSPD) 12 –
Policy for a Common Identification Standard for Federal Employees and Contractors, page 6.
http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
3
  M-05-24, page 6, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
4
  M-05-24, page 6, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
5
  M-05-24, page 6, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                   March 31, 2011
Report No. 481
                                                   v
SEC is currently unable to determine the actual number of contractors who are
employed by the SEC; thus, there is a serious question as to whether the SEC
accurately reported its statistics related to contractors in its December 31, 2010,
quarterly HSPD-12 Implementation Status Report to OMB.

Further, M-05-24 required that agencies adopt and accredit a registration
process and initiate an appropriate background investigation for all new
employees and contractors by October 27, 2005. 6 We found that the SEC, as it
reported to OMB, only began issuing PIV credentials to all new employees and
contractors as part of the onboarding process in April 2010, and the SEC has
failed to meet the October 27, 2005 deadline by several years.

During our audit, we compared the SEC’s September 2010 quarterly HSPD-12
Implementation Status Report with reports of (1) other federal financial agencies
and (2) federal agencies of similar size to the SEC. We found that the SEC
lagged well behind both other agencies with similar missions and those with
similar numbers of employees. As of September 30, 2010, the SEC reported that
only 61 percent of its employees and contractors had been issued PIV cards,
while all of the other agencies we reviewed reported that they had issued PIV
cards to over 90 percent of their employees and contractors.

Our audit also found that since June 30, 2008, the SEC has adjudicated and
determined the eligibility of 26 employees and contractors to access classified
information without receipt of delegated authority from the Director of National
Intelligence (DNI), which Executive Order 13467 established as the final authority
to designate an agency to make such determinations. We also found that the
SEC’s determinations of eligibility for access to classified information were based
on incorrect policies and procedures. Additionally, we found that OAS’s Physical
Security Branch is making eligibility determinations for applicants seeking
temporary access to SEC facilities without the proper authority. Moreover, the
Physical Security Branch is not using the appropriate standards for making these
determinations.

Our audit also found that the SEC’s regional offices have not consistently
enrolled PIV badges into the SEC’s physical access control system. In addition,
the SEC’s badging policy is outdated and does not include policies and
procedures for issuing and revoking badges, or for requiring the use of the PIV
credentials as the common means of authentication for access to SEC facilities
and information systems. We further found that OHR’s Personnel Security
Branch does not have policies or procedures specific to adjudicating foreign
nationals.

Further, our audit determined that OIT’s asset inventory does not account for
keyboards (some of which contain card readers that could be used to
authenticate PIV credentials) and lacks detail necessary to identify laptops that
6
 M-05-24, page 6, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                March 31, 2011
Report No. 481
                                                 vi
have card readers. Without this information, OIT might unnecessarily purchase
new keyboards and laptops with card readers or external card readers.
Our audit also disclosed that OIT employs two full-time registrars, who are
responsible for validating an applicant’s identity, ensuring the successful
completion of background checks, and providing approval for the issuance of a
PIV credential to the applicant. Our audit found that the SEC expended a total of
approximately $144,000 to employ registrars between June 2009 and December
2010, which would have been avoided if the SEC had implemented HSPD-12
within the required timeframes. Moreover, our audit found that based on the
average number of transactions processed per day, the SEC only requires one
part-time registrar. We also found that the SEC did not conduct an analysis
before employing a second full-time registrar or consider alternatives, such as
splitting the time of the existing registrar between both facilities or hiring a part-
time registrar to work at the Operations Center. As a result, the SEC has
expended unnecessary costs to employ two full-time registrars when, based on
an eight-hour workday, the registrars combined are spending an average of only
two hours per day processing transactions. Our audit concluded that the SEC
could save $108,000 annually by employing one part-time registrar, rather than
two full-time registrars.

Finally, the audit found that OAS’s Physical Security Branch is not maintaining
visitor record logs in accordance with the National Archives and Records
Administration’s (NARA) General Records Schedule retention requirement of two
years. Because the Physical Security Branch is retaining such records for only
90 days, it is unable to analyze visitor logs effectively to determine if visitors are
accessing the agency inappropriately (i.e., circumventing the badging process if
they require access for more than six months).

Summary of Recommendations. Our audit determined that numerous
improvements were required in order to ensure that the SEC becomes compliant
with HSPD-12. Specifically, we recommended that:

        (1)   OHR immediately prepare formal documented plans for
              initiating background investigations for all current employees
              who do not have successfully adjudicated background
              investigations on record, commensurate with risk;

        (2)   OHR immediately, but no later than 90 days after the issuance
              of this report, initiate background investigations for all current
              employees who do not have successfully adjudicated
              investigations on record, commensurate with risk;

        (3)   OAS should identify and develop a consolidated list of all
              contractors employed by the SEC, and coordinate with the
              Contracting Officer’s Technical Representatives and


The SEC’s Implementation of and Compliance with HSPD-12                    March 31, 2011
Report No. 481
                                               vii
              Inspection and Acceptance Officials to implement policies and
              procedures for ensuring that the list remains up to date;

        (4)   OAS provide the OHR’s Personnel Security Branch with a
              copy of the up-to-date consolidated contractor list on a weekly
              basis;

        (5)   OHR’s Personnel Security Branch, upon receipt of the up-to-
              date consolidated contractor list, should determine which
              contractors do not have successfully adjudicated
              investigations on record and develop a plan to begin the
              required background investigations immediately;

        (6)   OHR, upon receipt of the up-to-date consolidated contractor
              list, ensure that accurate status reporting has been made to
              OMB;

        (7)   OED discontinue adjudicating all eligibility determinations for
              access to classified information or holding a sensitive position
              until the SEC has received an appropriate delegation of
              authority to conduct such determinations from the DNI;

        (8)   OED identify all eligibility determinations for access to
              classified information or holding a sensitive position
              adjudicated by the SEC since June 30, 2008, and, upon
              receipt of authority from the DNI, conduct a quality control
              assessment to ensure that the determinations were conducted
              in accordance with the uniform policies and procedures
              developed by DNI;

        (9)  OED, upon receipt of authority from the DNI to make eligibility
             determinations for access to classified information or holding a
             sensitive position, should use the DNI’s uniform policies and
             procedures developed by DNI when making such
             determinations;.
        (10) OAS immediately discontinue making eligibility determinations
             for persons requiring temporary access to SEC facilities or
             information systems without proper authorization;

        (11) OAS immediately provide OHR’s Personnel Security Branch
             with a list of all persons who have been provided or denied
             access based on the Physical Security Branch’s risk
             assessments, as well as a copy of all fingerprints records,
             supporting documentation, and the results of the risk
             assessments;


The SEC’s Implementation of and Compliance with HSPD-12                  March 31, 2011
Report No. 481
                                               viii
        (12) OHR, in coordination with OAS, should develop policies and
             procedures for determining the eligibility of contractors,
             visitors, and guests requiring temporary access to SEC’s
             facilities or information systems;

        (13) OAS communicate to regional office staff its expectations for
             enrolling PIV credentials into their physical access control
             systems and using the PIV credential as the primary badge for
             physical access to SEC facilities;

        (14) OAS require administrative officers in the regional offices, or
             designated points of contact, to enroll PIV cards in the SEC’s
             physical access control system;

        (15) OED communicate to all SEC employees and contractors their
             responsibility to inform the appropriate regional office official
             that they have been issued a Personal Identity Verification
             card so the card can be enrolled into the SEC’s physical
             access control system;

        (16) OED develop and implement a policy requiring the PIV badge
             to be used as a common and primary means of authentication
             for physical and logical access;

        (17) OAS revise and update its Identification Cards, Press Passes
             and Proximity Access Control Cards policy to reflect current
             and proper practices for issuance and revocation of badges,
             including PIV cards, to SEC employees and contractors at all
             SEC facilities, post the revised policy on the SEC’s intranet
             site, and communicate the new policy to all employees and
             contracting officials;

        (18) OAS develop and implement a plan to systematically revoke
             all SEC-issued badges for all employees and contractors who
             have been issued HSPD-12 badges and ensure that the plan
             is implemented no later than six months after the date this
             report is issued;

        (19) OHR develop, implement, and post in multiple locations (e.g.,
             SEC intranet site, human resources offices, regional offices)
             and provide at contractor orientation its appeals procedures
             for individuals who are denied credentials or whose
             credentials are revoked;

        (20) OHR develop internal policies and procedures for suitability
             determinations for foreign nationals;

The SEC’s Implementation of and Compliance with HSPD-12                 March 31, 2011
Report No. 481
                                               ix
        (21) OIT immediately conduct an audit of its inventory to identify
             and track all keyboards and laptops that contain card readers;

        (22) OIT promptly deploy appropriate technology (e.g., laptops with
             internal card readers, keyboards with card readers, or external
             card readers) to employees and contractors who do not have
             card readers;

        (23) OIT eliminate one full-time registrar and split the time of the
             other full-time registrar between the Operations Center and
             headquarters locations;

        (24) OAS retain visitor control logs for a period not less than two
             years after final entry or two years after date of document in
             accordance with the NARA’s General Records Schedule; and

        (25) OAS perform periodic analysis of visitor data to ensure that
             visitors are not circumventing the HSPD-12 requirements.




The SEC’s Implementation of and Compliance with HSPD-12                   March 31, 2011
Report No. 481
                                                x
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ........................................................................................................ xi

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 5

Findings and Recommendations .......................................................................... 7
     Finding 1: The SEC Has Not Issued PIV Credentials to All Employees
     and Contractors and Lags Behind Other Federal Agencies in
     Implementing HSPD-12 ..................................................................................... 7
                  Recommendation 1..................................................................... 14
                  Recommendation 2..................................................................... 15
                  Recommendation 3..................................................................... 15
                  Recommendation 4..................................................................... 15
                  Recommendation 5..................................................................... 16
                  Recommendation 6..................................................................... 16

         Finding 2: The SEC Does Not Have the Authority to Determine Eligibility of
         a Person for Access to Classified Information .................................................. 17
                      Recommendation 7..................................................................... 19
                      Recommendation 8..................................................................... 20
                      Recommendation 9..................................................................... 20

         Finding 3: OAS’s Physical Security Branch Is Making Eligibility
         Determinations for Applicants Seeking Temporary Access to SEC
         Facilities Without the Proper Authority ............................................................. 20
                        Recommendation 10................................................................... 23
                        Recommendation 11................................................................... 23
                        Recommendation 12................................................................... 23

         Finding 4: PIV Cards Are Not Consistently Enrolled in the SEC’s Physical
         Access Control System and Badge Requirements for Physical Access to
         SEC Facilities Have Not Been Communicated to All Employees and
         Contractors....................................................................................................... 24
                       Recommendation 13................................................................... 26
                       Recommendation 14................................................................... 26
                       Recommendation 15................................................................... 27




The SEC’s Implementation of and Compliance with HSPD-12                                              March 31, 2011
Report No. 481
                                                         xi
         Finding 5: OAS’s Physical Security Branch Badging Policy Is Outdated
         and Does Not Include Procedures for Issuance and Revoking of Badges ....... 27
                      Recommendation 16................................................................... 31
                      Recommendation 17................................................................... 32
                      Recommendation 18................................................................... 32
                      Recommendation 19................................................................... 32

         Finding 6: OHR’s Personnel Security Branch Does Not Have Policies and
         Procedures for Adjudicating Foreign Nationals ................................................ 33
                      Recommendation 20................................................................... 34

         Finding 7: OIT Is Unaware of the Number of Devices in Its Inventory That
         Would Physically Permit Authentication of PIV Cardholders Accessing
         SEC’s Logical Information Resources .............................................................. 34
                      Recommendation 21................................................................... 35
                      Recommendation 22................................................................... 35

         Finding 8: OIT Has Unnecessarily Employed Two Full-Time Registrars .......... 36
                      Recommendation 23................................................................... 39

         Finding 9: OAS’s Physical Security Branch Is Not Maintaining Visitor Logs
         in Accordance with the Applicable Record Retention Policies.......................... 39
                      Recommendation 24................................................................... 41
                      Recommendation 25................................................................... 41

Appendices
    Appendix I: Acronyms/Abbreviations. ............................................................ 42
    Appendix II: Scope and Methodology ............................................................. 43
    Appendix III Criteria ........................................................................................ 47
    Appendix IV: List of Recommendations ........................................................... 49
    Appendix V: Schedule of Cost Savings ........................................................... 54
    Appendix VI: Management’s Comments .......................................................... 55
    Appendix VII: OIG Response to Management’s Comments............................. 60

Tables
         Table1: Dates and Actions That Should Be Completed by Each
                     Department and Agency As Stated in the Implementation
                     Standard .............................................................................................. 2
         Table 2:    Comparison of SEC to Other Federal Financial Agencies................. 12
         Table 3:    Comparison of SEC to Other Similar Sized Federal Agencies .......... 13
         Table 4:    Number of Transactions Processed between May 2010 and
                     November 2010 by Registrars ........................................................... 37
         Table 5:    Schedule of Cost Savings ................................................................. 54




The SEC’s Implementation of and Compliance with HSPD-12                                             March 31, 2011
Report No. 481
                                                        xii
                    Background and Objectives

Background
Issuance of HSPD-12 and Implementing Standards and Guidance. On
August 27, 2004, President George W. Bush signed Homeland Security
Presidential Directive 12 (HSPD-12), Policy for a Common Identification
Standard for Federal Employees and Contractors. 7 This directive requires
federal agencies to have programs in place to ensure that the identifications
issued by each agency to federal employees and contractors meet a common
standard. Those standards and technical specifications were set forth in Federal
Information Processing Standards Publication (FIPS) 201, Personal Identity
Verification (PIV) of Federal Employees and Contractors, which was initially
issued by the National Institute of Standards and Technology (NIST) on February
25, 2005, and updated in March 2006 with the issuance of FIPS 201-1. On
August 5, 2005, the Office of Management and Budget (OMB) issued
memorandum M-05-24, Implementation of Homeland Security Presidential
Directive (HSPD) 12 – Policy for a Common Identification Standard for Federal
Employees and Contractors (M-05-24), which provides instructions for
implementing HSPD-12 and FIPS 201. 8 Further, M-05-24 required all employees
and contractors needing access for periods longer than six months to comply
with the background investigation requirements of FIPS 201. FIPS 201 requires
the completion of a background investigation consisting of a National Agency
Check with Inquiries (NACI) or other Office of Personnel Management (OPM) or
National Security community investigation. 9

Implementation Requirements. As described in M-05-24, department and
agency implementation of HSPD-12 contains two parts: Part 1 – Common
Identification, Security, and Privacy Requirements and Part 2 – Government-wide
Uniformity and Interoperability. Part 1 defines the minimum requirements for a
federal personal identification system that meets the control and security
objectives of HSPD-12, including personal identify proofing, registration, and
issuance process for employees and contractors. Part 2 details the
specifications used to support the technical interoperability among departments
and agencies, which include card elements, system interfaces, and security
7
  Homeland Security Presidential Directive 12 (HSPD-12), Policy for a Common Identification Standard for
Federal Employees and Contractors (http://www.whitehouse.gov/news/releases/2004/08/20040827-8.html).
8
  Office of Management and Budget (OMB) Memorandum M-05-24, Implementation of Homeland Security
Presidential Directive (HSPD) 12 – Policy for a Common Identification Standard for Federal Employees and
Contractor, (M-05-24), August 5, 2005 (http://www.whitehouse.gov/omb/memoranda/fy2005/m05-24.pdf).
9
  A NACI is the “basic and minimum investigation required on all new federal employees consisting of a NAC
[National Agency Check] with written inquiries and searches of records covering specific areas of an
individual’s background during the past five years (inquiries sent to current and past employers, schools
attended, references, and local law enforcement authorities).” Federal Information Processing Standards
Publication 201-1 (FIPS 201-1), Personal Identity Verification (PIV) of Federal Employees and Contractors,
March 2006, Appendix C, page 66, http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.

The SEC’s Implementation of and Compliance with HSPD-12                                   March 31, 2011
Report No. 481
                                                    1
controls required to securely store and retrieve data from the card. M-05-24
provides dates by which all departments and agencies should complete their
implementation of HSPD-12, as reflected in Table 1 below:

        Table 1: Dates and Actions That Should Be Completed by Each
        Department and Agency
         Date                                            Agency Action
         06/27/2005          Submit implementation plans to OMB
         10/27/2005          Comply with FIPS 201, Part I
         10/27/2006          Begin compliance with FIPS 201, Part 2
         10/27/2007          Verify and/or complete background investigations for all current
                             employees and contractors
         10/27/2008          Complete background investigations for all federal departments
                             or agency employees employed over 15 years
         Source: OMB Memorandum M-05-24, Implementation of Homeland Security Presidential
         Directive (HSPD) 12 – Policy for a Common Identification Standard for Federal Employees
         and Contractors, August 5, 2005, page 4, Section 2.B.

Further, agencies are required to acquire and use federally approved products
and services that are compliant with FIPS 201 and included on the approved
products list. In addition, departments and agencies are encouraged to use the
acquisition services provided by the General Services Administration (GSA). For
small departments and agencies where it may not be cost-effective to procure
their own products or services, M-05-24 indicates that GSA will identify agency
sponsors to provide the services. The U.S. Securities and Exchange
Commission (SEC or Commission) determined that it would be cost-prohibitive to
acquire and use its own federally approved products and services. As a result, in
August 2008, the SEC entered into an interagency agreement with GSA to
provide these products and services.

Furthermore, under FIPS 201, agencies are required to report annually on the
numbers of agency-issued credentials, including (1) general credentials and (2)
special-risk credentials. The SEC reports this data to OMB and posts its HSPD-
12 Implementation Status Report on the SEC’s website quarterly.

Roles and Responsibilities. The SEC implemented a collaborative effort to
comply with HSPD-12 among three SEC offices: the Office of Information
Technology (OIT), the Office of Administrative Services (OAS), and the Office of
Human Resources (OHR). OIT is responsible for overseeing the implementation
of the HSPD-12 program, assigning roles and responsibilities as requested by
OHR’s Personnel Security Branch management, and implementing logical and
technology solutions for the use of HSPD-12 for identification and authentication
to SEC logical information systems. OAS is responsible for enrolling PIV
credentials 10 into its physical access control system and providing temporary

10
  A “PIV card” is defined as “[a] physical artifact (e.g., identity card, “smart” card) issued to an individual that
contains stored identity credentials (e.g., photograph, cryptographic keys, digitized fingerprint
representation) so that the claimed identity of the cardholder can be verified against the stored credentials
by another person (human readable and verifiable) or an automated process (computer readable and
The SEC’s Implementation of and Compliance with HSPD-12                                            March 31, 2011
Report No. 481
                                                         2
SEC-issued badges while employees or contractors are awaiting receipt of their
PIV credentials (also referred to as a PIV card or HSPD-12 badge).

OHR is responsible for the most essential component of the SEC’s
implementation of and compliance with HSPD-12, which is sponsoring and
adjudicating the background investigation of an applicant. Further, OHR is
responsible for sponsoring the employee or contractor for a PIV credential,
adjudicating the results of the background investigation (including fingerprints),
granting reciprocity as applicable, and informing OIT and OAS that the employee
or contractor is eligible for access to the SEC facilities and authorized technology
systems.

In addition to the three SEC offices, GSA, the Federal Bureau of Investigation
(FBI), OPM, and the Director of National Intelligence (DNI) also have roles and
responsibilities in the SEC’s implementation of and compliance with HSPD-12.
GSA is responsible for registering, issuing, and activating the PIV credentials on
behalf of the SEC. The FBI is responsible for receiving fingerprints and providing
results of the criminal record checks of employees or contractors to the SEC to
be adjudicated prior to issuing SEC badges 11 or PIV credentials. OPM is
responsible for providing oversight of, and developing and implementing uniform
and consistent policies and procedures for, the completion of investigations and
adjudications relating to suitability determinations and eligibility for logical and
physical access. In addition, OPM designates agencies to adjudicate suitability
eligibility determinations for logical and physical access. The DNI is responsible
for the oversight of investigations and determination of eligibility for access to
classified information, including developing uniform policies and procedures
related to determinations of eligibility for access to classified information.
Further, the DNI is responsible for delegating agencies the authority to determine
eligibility to accessed classified information in accordance with Executive Order
12968, Access to Classified Information.

This collaborative effort requires diligence among all the SEC offices involved in
the process, with a special emphasis on OHR, which is responsible for
sponsoring the employee or contractor for the PIV credential and adjudicating the
results of the background investigation. Below is a description of the
responsibilities of each role that is held by OHR staff members.

    •    Sponsor: As of December 13, 2010, the SEC had three sponsors. 12 A
         sponsor’s role is to substantiate the need for a PIV credential to be issued

verifiable).” FIPS 201-1, Appendix F, Page 73, http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-
chng1.pdf.
11
   SEC-issued badges include several types of badges: an SEC government employee badge that has a
dark blue background; an SEC contractor employee badge that has an orange background; an on-site
business badge that has a light blue background; an intern badge that has a red background; a badge
issued to employees of other federal agencies who are working at the SEC pursuant to interagency
agreements that has a black bar with stripes; a visitor badge; and an employee day pass that is paper.
12
   This information was obtained from the GSA USAccess program, Role Assignment Report, printed
12/13/2010 at 4:35:06 pm.
The SEC’s Implementation of and Compliance with HSPD-12                                         March 31, 2011
Report No. 481
                                                      3
         to an applicant. The sponsor is responsible for entering the applicant’s
         biographical information and other data into the GSA USAccess system
         once a request has been received from a contracting official or OHR’s
         Talent Management Branches. The sponsors are located in the
         Personnel Security Branch within OHR.

     •   Adjudicator: As of December 13, 2010, the SEC had three
         adjudicators. 13 An adjudicator is responsible for recording the adjudication
         results of the applicant. A “positive” or “favorable” adjudication will initiate
         the PIV credential issuance process. Adjudicators are assigned within the
         Personnel Security Branch.

In addition, the roles and responsibilities of the GSA Managed Service Office
(MSO) 14 staff includes registering, issuing, and activating PIV credentials, which
are significant functions in the implementation of and compliance with HSPD-12.
MSO staff roles are described below.

     •   Registrar: The registrar is responsible for validating the applicant’s
         identity (i.e., identity proofing) by inspecting two identity documents, one of
         which must be a government-issued photo identification. Also, the
         registrar collects biographical information from the identity documents,
         takes a photograph, and collects rolled fingerprints from the applicant.
         Registers are not specific to an agency, but rather are provided by the
         MSO. Registrars are located in MSO offices throughout the United States.
         The SEC has two registrars located on site, one at headquarters and
         another at the Operations Center.

     •   Issuer: The issuance process is completely automated and, as a
         consequence, a physical person is not required to complete the task of
         issuing the PIV credential. USAccess, the GSA application used by MSO
         to process the PIV credential request, produces the PIV credential and
         issues the PIV card to the MSO for activation. 15

     •   Activator: The activator is responsible for verifying that the applicant is
         the person to whom the PIV card should be issued and assists the
         applicant in activating the PIV credential. 16

Implementation Delays. In the early stages of implementing HSPD-12, as
referenced in the OIG Inspection Background Investigations, Report No. 434,

13
   This information was obtained from the GSA USAccess program, Role Assignment Report, printed
12/13/2010 at 4:35:06 pm.
14
   A GSA MSO is a managed shared service solution that simplifies the process of procuring and
maintaining PIV-compliant credentials and provides turn-key services to federal agencies in satisfying the
requirements of OMB Memorandum M-05-24. For additional information, see http://www.fedidcard.
gov/aboutmso.aspx.
15
   PIV Card Issuer Operations Plan, GSA MSO, CM# GSA-DI-0000129-1.4.0, p. 35.
16
   PIV Card Issuer Operations Plan, GSA MSO, CM# GSA-DI-0000129-1.4.0, p. 37.
The SEC’s Implementation of and Compliance with HSPD-12                                      March 31, 2011
Report No. 481
                                                    4
issued on March 28, 2008, the SEC faced multiple challenges, such as a lack of
resources to adjudicate the number of applicants and a paper-based onboarding
process. However, since 2008, Personnel Security has increased its staff from
one adjudicator to three adjudicators and has automated the onboarding
process.

Implementation Status. The SEC has provided to OPM, on a quarterly basis,
HSPD-12 Implementation Status Reports. 17 As of December 2010, the SEC
informed OMB that it would continue to not comply with several deadlines
required by M-05-24, including (1) completion of the issuance of PIV credentials
to all employees and contractors, (2) adjudications or verifications of background
investigations for all employees and contractors, (3) integration of PIV credentials
with logical access systems, and (4) integration of PIV credentials with physical
access systems. In addition, the SEC informed OMB in its December 2010
quarterly report that 1,238 18 of its approximately 3,907 employees 19 and 785 20 of
its approximately 1,427 contractors 21 still require PIV credentials. Further, the
SEC informed OMB that it would complete the integration of PIV credentials with
its logical access systems by December 2011.

Objectives
In accordance with its annual audit plan, the OIG conducted an audit of the
Commission’s implementation of HSPD-12. The primary objective of this audit of
the SEC’s implementation of and compliance with HSPD-12 is to determine if the
SEC is fully compliant with HSPD-12 and the implementing standards and
guidance. The specific audit objectives were as follows:

     •   Evaluate whether the SEC has adequate controls and the necessary
         processes and procedures to perform background investigations,
         adjudicate results, and issue credentials.

     •   Evaluate the roles and responsibilities for the HSPD-12 initiative among

17
   The most recent Implementation Status Report, issued in December 2010, can be found at
http://www.sec.gov/about/piv_report_for_omb.pdf.
18
   This number represents the “Number of Employees requiring PIV credentials” as reported by the SEC to
OMB in December 2010 in its HSPD-12 Implementation Status Report,
http://www.sec.gov/about/piv_report_for_omb.pdf (accessed on 02/01/2011).
19
   This number represents the sum of the “Total Number of PIV credentials Issued to Employees” (2,669)
and “Number of Employees requiring PIV credentials” (1,238) as reported by the SEC to OMB in December
2010 in its HSPD-12 Implementation Status Report, http://www.sec.gov/about/piv_report_for_omb.pdf
(accessed on 02/01/2011).
20
   This number represents the “Number of Contractors requiring PIV credentials” as reported by the SEC to
OMB on December 2010 in its HSPD-12 Implementation Status Report,
http://www.sec.gov/about/piv_report_for_omb.pdf (accessed on 02/01/2011).
21
   The total number of contractors was calculated using data provided in the SEC’s December 2010
quarterly HSPD-12 Implementation Status Report. The total number of contractors (1,427) is the sum of the
“Number of Contractors requiring PIV credentials” (785) and “Total Number of PIV Credentials Issued to
Contractors” (642), although Personnel Security Branch staff acknowledged that they were unsure of the
actual total number of SEC contractors.
The SEC’s Implementation of and Compliance with HSPD-12                                     March 31, 2011
Report No. 481
                                                    5
        the various offices involved in the process, including OAS, OHR, and OIT.

    •   Assess compliance with HSPD-12 and determine whether all the
        necessary equipment has been purchased to implement HSPD-12
        throughout the SEC.

    •   Evaluate whether the HSPD-12 processes and procedures are
        consistently applied throughout the SEC (i.e., at headquarters and the
        regional offices).




The SEC’s Implementation of and Compliance with HSPD-12               March 31, 2011
Report No. 481
                                                6
              Findings and Recommendations

Finding 1: The SEC Has Not Issued PIV
Credentials to All Employees and Contractors
and Lags Behind Other Federal Agencies in
Implementing HSPD-12
        The SEC has not issued PIV credentials to all employees
        and contractors in accordance with HSPD-12. In addition,
        the SEC does not have a formal, documented plan for
        completing the implementation of HSPD-12 and is unable to
        account for all of the contractors employed by the agency.
        As a result, the SEC is not compliant with HSPD-12 and lags
        behind other federal financial agencies and agencies of
        similar size in implementing the directive.

On August 27, 2004, the President signed HSPD-12, Policy for a Common
Identification Standard for Federal Employees and Contractors, which requires
the development and agency implementation of a mandatory, government-wide
standard for secure and reliable forms of identification for federal employees and
contractors. The OMB, on August 5, 2005, issued Implementation Standards,
OMB Memorandum, M-05-24, Implementation of Homeland Security Presidential
Directive (HSPD) 12 – Policy for a Common Identification Standard for Federal
Employees and Contractors (M-05-24), which provides guidance for agencies’
implementation of HSPD-12. M-05-24 provides specific requirements and
deadlines for departments and agencies to achieve for issuing the PIV
credentials (also referred to as HSPD-12 badges or cards) to employees and
contractors. Under HSPD-12, department and agency heads conduct
background investigations, adjudicate the results, and issue identity credentials
to their employees and contractors who require long-term access (i.e., more than
six months) to federally controlled facilities and/or information systems. 22 M-05-
24 also specifically provides instructions for developing plans, completing
background investigations, and issuing credentials to current employees, current
contractors, new employees, and new contractors.

Current SEC Employees
M-05-24 requires agencies to develop a plan and begin the required background
investigations for current employees who did not have an initiated or successfully
adjudicated investigation (i.e., a NACI or other OPM or National Security
community investigation) on record by October 27, 2005. In addition, M-05-24

22
  M-05-24, p. 2, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                 March 31, 2011
Report No. 481
                                                  7
requires agencies to verify and/or complete background investigations for all
current employees, excluding those who have been employed by the federal
government over 15 years, by October 27, 2007. 23 Further, M-05-24
Implementation Standard stated, “For individuals who have been federal
department or agency employees over 15 years, a new investigation may be
delayed, commensurate with risk, but must be completed no later than October
27, 2008.” 24

Plan and Initiation of Background Investigations for Current Employees.
During interviews with Personnel Security Branch staff, we were informed that
the Personnel Security Branch has developed an informal plan to conduct
background investigations, adjudicate results, and issue credentials for
employees with less than 15 years of federal service, based on the number of
staff in each division or office. However, we found no formal documentation of
this plan and thus were unable to confirm if the SEC ever satisfied the
requirement that a plan be developed by October 27, 2005. We note that in a
previous inspection conducted by the OIG in March 2008 with respect to its audit
on Background Investigations, 25 we similarly found that “the Office of Human
Resources [did] not have a formal plan of how it intend[ed] to meet this
requirement [to develop a plan by October 27, 2005]. Additionally, due to limited
resources, OHR ha[d] not focused its efforts on meeting this requirement.”
Consistent with our finding in the OIG’s March 2008 Background Investigations
report, we found in this audit that background investigations were not begun for
all current employees who did not have an initiated or completed investigation on
record by the October 27, 2005 deadline, due to the lack of resources. Although
we were unable to confirm an exact date for when the required background
investigations were actually initiated, the Personnel Security Branch informed us
that background investigations were completed for all current employees with
less than 15 years of federal service in or about March or April of 2009.

Verification and/or Completion of Background Investigations for All Current
Employees With Less Than 15 Years Federal Service. As described above,
OIG found that the SEC did not verify and/or complete background investigations
for all current employees, excluding those who have been employed by the
federal government more than 15 years, until March or April of 2009 —
approximately a year and a half after the October 27, 2007, completion date
required by M-05-24. 26 We were informed by the Personnel Security Branch that
the SEC did not meet this deadline due to a lack of resources.



23
   M-05-24, page 6, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf
24
   M-05-24, page 6, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf
25
   Background Investigations, Inspection Report No. 434, March 28, 2008. http://www.sec-
oig.gov/Reports/AuditsInspections/2008/434final.pdf.
26
   We were unable to confirm the exact date of completion. The Personnel Security Branch informed us that
the SEC verified and/or completed background investigations for all current employees, excluding those who
have been employed by the federal government over 15 years, around the March/April 2009 timeframe.
The SEC’s Implementation of and Compliance with HSPD-12                                     March 31, 2011
Report No. 481
                                                    8
Investigations for Employees With More Than 15 Years of Federal Service.
As of December 31, 2010, the SEC had not verified and/or completed
background investigations for 1,263 27 employees who have more than 15 years
of federal government service. As a result, the SEC did not meet the October 27,
2008, deadline requirement set forth in M-05-24. Moreover, based on interviews
with Personnel Security Branch staff, we learned that the SEC has not developed
a formal, documented plan, commensurate with risk, to complete these
background investigations. Although the Personnel Security Branch represented
to us that the Branch has an informal plan, this informal plan (based upon the
size of divisions or offices) is not consistent with M-05-24, which requires that
outstanding background investigations be conducted commensurate with risk.
By not conducting the outstanding background investigations commensurate with
risk, the agency has allowed employees to continue to occupy key agency
positions without having a successfully adjudicated background investigation
equivalent to or greater than a NACI. For example, based on the SEC Executive
Director’s (ED) Notice of Personnel Action dated January 3, 2010, the ED’s
position is classified as critical sensitive risk. However, the ED does not have a
successfully adjudicated background investigation completed that is equivalent to
or greater than a NACI, which is the minimum background investigation level
required. During the course of this audit, on or about December 14, 2010, a
background investigation was initiated for the ED; however, the background
investigation has not yet been completed.

During an interview with the ED, we were informed that all remaining background
investigations would be initiated in January 2011, and adjudications and the
verification of background investigations for employees requiring investigations
would be completed by March 31, 2011. In the SEC’s December 2010 quarterly
HSPD-12 the Implementation Status Report to OMB, the SEC indicated that it
would complete adjudication and verification of background investigations for all
employees and contractors by March 2011. However, we were informed on
February 2, 2011, that the SEC had still not begun the background investigations
for 1,263 employees who have been employed by the federal government for
over 15 years. The ED indicated that the delay in processing these
investigations is due to workload demands. As previously mentioned, this is the
same justification provided for the prior delay in implementing HSPD-12 with
respect to employees with less than 15 years of federal service. The initiation,
verification, and completion of background investigations for all current
employees with less than 15 years of federal service occurred during a period
when the Personnel Security Branch employed only one adjudicator for
background investigations for the entire agency. In 2008, the Personnel Security
Branch increased the number of adjudicators from one to three. Further, the
federal government has been operating under a continuing resolution and hiring
has therefore been restricted; as a result, we believe that the Personnel Security

27
   This number represents the total number of employees with more than 15 years of federal service who
either (1) had a background investigation completed more than 15 years ago that was at least equivalent to
a NACI; or (2) never had a background investigation that was at least equivalent to a NACI completed.
The SEC’s Implementation of and Compliance with HSPD-12                                     March 31, 2011
Report No. 481
                                                    9
Branch has had adequate time to initiate and adjudicate background
investigations for all employees who still require investigations.

Moreover, the continuous delays related to the Personnel Security Branch’s not
initiating background investigations for current employees with more than 15
years of federal service may likely result in further delays in the SEC’s
implementation of HSPD-12. As a consequence, the SEC may have to report to
OMB in its March 31, 2011, quarterly HSPD-12 Implementation Status Report yet
another new completion date.

Current SEC Contractors
M-05-24 required agencies to develop a plan and begin the required background
investigations for all current contractors who did not have a successfully
adjudicated investigation on record by October 27, 2005. 28 In addition, M-05-24
provided that the requirement should be phased in to coincide with the contract
renewal cycle, but no later than October 27, 2007. 29 In the SEC’s quarterly
HSPD-12 Implementation status report provided to OMB on December 31, 2010,
the SEC reported that 785 30 of approximately 1,427 contractors31 required PIV
credentials.

Based on interviews with Personnel Security Branch staff, we understand that
the SEC has begun initiating required background investigations and adjudicating
those investigations for current contractors for whom they have received a
request from the contractor’s assigned Contracting Officer’s Technical
Representative (COTR) and the Inspection and Acceptance Officials (IOA).
However, a formal documented plan has not been prepared for ensuring that
background investigations are completed for all contractors employed by the
SEC. While the Personnel Security Branch receives a consolidated, up-to-date
list of current SEC employees from the SEC’s payroll system, it has not received
a consolidated, up-to-date list of all contractors who are employed by the SEC
who require long-term access to SEC-controlled facilities or SEC information
systems. Consequently, we found that the Personnel Security Branch is unable
to accurately determine which contractors have a successfully adjudicated
background investigation on record, unless it has been processed at the request
of the COTR.



28
   M-05-24, p. 6, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
29
   M-05-24, p. 6, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
30
   This number represented the ““Number of Contractors requiring PIV credentials” as reported by the SEC
to OMB on December 2010 in its HSPD 12 Implementation Status Report,
http://www.sec.gov/about/piv_report_for_omb.pdf.
31
   The total number of contractors was calculated using data provided in the SEC’s December 31, 2010,
quarterly HSPD-12 Implementation Status Report. The total number of contractors (1,427) is the sum of the
“Number of Contractors requiring PIV credentials” (785) and “Total Number of PIV Credentials Issued to
Contractors” (642); however, Personnel Security Branch staff acknowledge that they were unsure of the
actual total number of SEC contractors.
The SEC’s Implementation of and Compliance with HSPD-12                                     March 31, 2011
Report No. 481
                                                   10
We contacted the OAS Office of Acquisitions (OA) to obtain an up-to-date list of
all current contractors. The contractor list OA provided was incomplete and
outdated. Through interviews with OA staff, we learned that OA has attempted to
maintain a complete list of contractor personnel, but has not been successful due
to lack of coordination between OA and COTRs regarding when a contractor is
still employed at the SEC or has been separated. 32 Consequently, the Personnel
Security Branch has been unable to determine the total number of contractors
who require background investigations that meet the minimum requirements of
HSPD-12.

As a result of not being able to determine the actual number of contractors who
are employed by the SEC, we were unable to verify whether the SEC has
accurately reported to OMB its HSPD-12 implementation status as it relates to
contractors. In fact, the Personnel Security Branch indicated that in the SEC’s
most recent submission to OMB, the information provided was only to the best of
the Personnel Security Branch’s knowledge because the office does not know
with certainty how many contractors have departed the SEC at any given time.
Therefore, it is possible that the SEC may have inaccurately reported its statistics
related to contractors in its December 31, 2010, quarterly HSPD-12
Implementation Status Report. Further, without an accurate and complete record
of all contractors employed by the SEC, the Commission may be unable to meet
the HSPD-12 implementation status dates that it provided to OMB on December
31, 2010, to complete the adjudications and verification of background
investigations for all contractors by March 2011 and issuance of PIV credentials
to all contractors by June 2011.

Further, we found that the SEC has not developed a plan, commensurate with
risk, or begun required background investigations for all current contractors who
do not have a successfully adjudicated investigation on record.

New SEC Employees and Contractors
M-05-24 requires that agencies adopt and accredit a registration process and
initiate a NACI or equivalent investigation for all new employees and contractors
by October 27, 2005. 33 As reported to OMB, the SEC only began issuing PIV
credentials to all new employees and contractors as part of the onboarding
process in April 2010 and has failed to meet the NACI October 27, 2005,
deadline. According to the Personnel Security Branch, the SEC did not meet this
deadline due to lack of resources.

We were informed that the Personnel Security Branch has hired two additional
adjudicators since 2008, which increased the number of adjudicators to three. In
addition, as noted above, we found that as of April 2010, the SEC had adopted a

32
   We have been informed that in the future, the list of current contractors will not be maintained by OA but
instead by the OAS Physical Security Branch.
33
   M-05-24, p. 5, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                          March 31, 2011
Report No. 481
                                                     11
registration process for all identity credentials issued to new SEC employees and
contractors who require long-term access to SEC-controlled facilities or
information systems. In addition, we found that the SEC has initiated a process
for conducting a NACI or equivalent investigation prior to credential issuance.

Benchmarking
We compared the SEC’s December 2010 quarterly HSPD-12 Implementation
Status Report with reports of (1) other federal financial agencies and (2)
agencies of similar size. We determined that the SEC lags behind other
agencies with similar missions (i.e., financial regulators) and/or with
approximately the same number of employees and contractors with completed
NACIs. We examined the HSPD-12 implementation status of four financial
agencies, including the SEC. These agencies were selected because they did
not have any errors in their reporting, OMB indicated that their data quality was
considered “acceptable,” and the date of their status report was equivalent to the
date of SEC’s status report. The financial agencies selected for our comparison
were the Farm Credit Administration, the Department of the Treasury, and the
Board of Governors of the Federal Reserve System (Federal Reserve Board).
See Table 2 below.

  Table 2: Comparison of SEC to Other Federal Financial Agencies
                                                     Percentage of
                                    Date of                            Percentage of
                                                    Employees and
                                    Status                            Employees and
       Name of Agency                                 Contractors
                                    Report                           Contractors with
                                                    with Completed
                                     Used                            Issued PIV Cards
                                                         NACIs
   Securities and Exchange       09/30/2010               82%              61%
   Commission
   Farm Credit Administration    09/30/2010               99%              95%
   Department of the Treasury    09/30/2010               99%              90%
   Federal Reserve Board         09/30/2010               95%              92%
  Source: Generated by OIG.

In addition, the OIG examined two additional federal agencies that are similar in
size to the SEC (based on the total number of employees requiring PIV
credentials reported to OMB) by reviewing their HSPD-12 Implementation Status
Reports submitted to OMB as of September 30, 2010. The agencies selected
were the Department of Education and the Nuclear Regulatory Commission.
See Table 3 below.




The SEC’s Implementation of and Compliance with HSPD-12                      March 31, 2011
Report No. 481
                                               12
 Table 3: Comparison of SEC to Other Similarly Sized Federal Departments
 or Agencies
                                      Number of                            Percentage of
                                                           Percentage of
                     Date of        Employees and                           Employees
                                                          Employees and
    Name of          Status         Contractors to                              and
                                                            Contractors
    Agency           Report           Receive PIV                           Contractors
                                                          with Completed
                      Used           Cards (Q4, FY                          with Issued
                                                               NACIs
                                         2010)                               PIV Cards
 Securities and    09/30/2010             4,971                82%             61%
 Exchange
 Commission
 Department of     09/30/2010             4,243                99%             99%
 Education
 Nuclear           09/30/2010             5,567               100%             100%
 Regulatory
 Commission
Source: Generated by OIG.

As Tables 2 and 3 illustrate, as of September 30, 2010, the SEC reported that
only 61 percent of its employees and contractors had been issued PIV cards,
while its counterparts reported that they had issued PIV cards to over 90 percent
of their employees and contractors. Also, as Tables 2 and 3 show, not only has
the SEC failed to meet the requirements of HSPD-12, but it also lags well behind
other federal financial agencies and similarly sized federal agencies or
departments in implementing HSPD-12, specifically as it relates to the
percentage of employees and contractors who have been issued PIV cards.

Summary
The SEC did not comply with the HSPD-12 requirements and deadlines for
current employees and contractors or for new employees and contractors.
Specifically, we found that SEC did not achieve any of the agency action
deadlines specified in M-05-24. In particular, we found that the SEC did not
develop a formal plan or verify and complete background investigations for all
current employees with less than 15 years of federal service prior to the October
27, 2007, deadline. Additionally, we found that the SEC has not completed
background investigations for all employees who have more than 15 years of
federal service and thus did not meet the October 27, 2008, deadline. We also
found that the informal plan developed by the Personnel Security Branch to
implement HSPD-12 is not commensurate with risk, but rather was developed
based on the population of divisions and offices with employees requiring
background investigations.

We further determined that the SEC does not have a complete, up-to-date list of
all contractors who are employed by the SEC. Furthermore, we were unable to
verify that the SEC is accurately reporting its HSPD-12 implementation status to
OMB as it pertains to contractors due to the lack of a complete and consolidated
list of contractors. Also, we found that the SEC has not developed a plan or
The SEC’s Implementation of and Compliance with HSPD-12                       March 31, 2011
Report No. 481
                                               13
adjudicated background investigations for all current contractors. In addition, we
found that the SEC significantly delayed issuing PIV credentials as required to
new employees and contractors, due to a claimed lack of resources.

As a result of the continuous delays resulting from Personnel Security Branch’s
not initiating new background investigations for current employees who have
been employed by the federal government for more than 15 years, it is likely that
the SEC will have to further delay its implementation of HSPD-12 and will have to
report a new estimated completion date to OMB in its March 31, 2011, quarterly
HSPD-12 Implementation Status Report. In addition, by not developing and
issuing an adequate implementation plan for the completion of background
investigations for current employees and contractors who still require background
investigations, as required by M-05-24, the SEC may not be able to meet the
March 2011 date for completion of adjudications and verification of background
investigations for all current contractors and employees or issue PIV credentials
to all contractors and employees by June 2011.

Further, due to the lack of tracking of contractors’ employment status, the SEC
cannot ensure that the PIV credential statistics reported to OMB related to
contractors are reliable and accurate. In addition, the SEC is not realizing the full
benefits of the PIV credentials due to the lack of full implementation. By not fully
implementing PIV credentials for physical and logical access, the SEC is unable
to realize the significant benefits of the PIV credentials, such as greater security
by virtue of enhanced authentication, increased government efficiency because
all federal employees have the same identification cards, reduced identity fraud
because the cards are assigned a personal identification number (PIN) for each
employee associated with the card, and protection of personal privacy resulting
from encryption of the personal data contained in the cards.

    Recommendation 1:

    The Office of Human Resources should immediately prepare formal,
    documented plans for initiating background investigations for all current
    employees who do not have successfully adjudicated background
    investigations on record, commensurate with risk.

    Management Comments. OHR concurred with this recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OHR concurred with this
    recommendation.




The SEC’s Implementation of and Compliance with HSPD-12                 March 31, 2011
Report No. 481
                                               14
    Recommendation 2:

    The Office of Human Resources should immediately, but no later than 90
    days after the issuance of this report, initiate background investigations for all
    current employees who do not have successfully adjudicated investigations
    on record, commensurate with risk.

    Management Comments. OHR concurred with this recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OHR concurred with this
    recommendation.

    Recommendation 3:

    The Office of Administrative Services should identify and develop a
    consolidated list of all contractors who are employed by the Commission. In
    addition, the Office of Administrative Services should coordinate with the
    Contracting Officer’s Technical Representatives and Inspection and
    Acceptance Officials to implement policies and procedures for ensuring that
    the list remains up to date.

    Management Comments. OAS concurred with this recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.

    Recommendation 4:

    The Office of Administrative Services should provide the Office of Human
    Resources Personnel Security Branch with a copy of the up-to-date
    consolidated contractor list on a weekly basis.

    Management Comments. OAS concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.




The SEC’s Implementation of and Compliance with HSPD-12                   March 31, 2011
Report No. 481
                                               15
    Recommendation 5:

    Upon receipt of the up-to-date consolidated contractor list, the Office of
    Human Resources Personnel Security Branch should determine which
    contractors do not have successfully adjudicated background investigations
    on record and develop a plan to begin the required background investigations
    immediately.

    Management Comments. OHR concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OHR concurred with this
    recommendation.

    Recommendation 6:

    Upon receipt of the up-to-date consolidated contractor list, the Office of
    Human Resources should ensure that accurate status reporting has been
    made to the Office of Management and Budget.

    Management Comments. OHR concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OHR concurred with this
    recommendation.




The SEC’s Implementation of and Compliance with HSPD-12               March 31, 2011
Report No. 481
                                               16
Finding 2: The SEC Does Not Have the
Authority to Determine Eligibility of a Person
for Access to Classified Information
         Since June 30, 2008, the SEC has adjudicated and
         determined the eligibility of 26 employees and contractors to
         access classified information without receipt of delegated
         authority from the Director of National Intelligence (DNI). We
         found that these determinations were based on incorrect
         policies and procedures and as a result found that the
         determinations for access to classified information that were
         made by the Office of Executive Director (OED) may not
         meet the minimum requirements of the adjudicative
         guidelines set forth by DNI.

On January 27, 1986, the SEC Chairman’s Office transferred authority over the
personnel security function to the OED and designated the ED as the
Commission’s Personnel Security Officer and the Director of Personnel (i.e., the
Associate Executive Director for Human Resources) as the Assistant Personnel
Security Officer. The transfer of this authority made the ED responsible for the
overall management of the SEC’s background investigation program and OHR
responsible for administering the program on behalf of the agency. Since this
delegation, the OED has retained responsibility for adjudicating the background
investigations of employees and contractors who require access to classified
information and assigned OHR’s Personnel Security Branch responsibility for
conducting suitability determinations for employees, contractors, and persons
requiring temporary access.

On June 30, 2008, President George W. Bush signed Executive Order 13467,
Reforming Processes Related to Suitability for Government Employment, Fitness
for Contractor Employees, and Eligibility for Access to Classified National
Security Information, 34 which designated the DNI as “the Security Executive
Agent.” According to Executive Order 13467, the DNI, among other things, is
“responsible for developing uniform and consistent policies and procedures to
ensure the effective, efficient, and timely completion of investigations and
adjudications relating to determinations of eligibility for access to classified
information or eligibility to hold a sensitive position”; serves as the final authority
to designate an agency to determine eligibility for access to classified information
in accordance with Executive Order 12968 of August 4, 1995; 35 and ensures
34
   Executive Order 13467, Reforming Processes Related to Suitability for Government Employment, Fitness
for Contractor Employees, and Eligibility for Access to Classified National Security Information, June 30,
2008, http://www.fas.org/irp/offdocs/eo/eo-13467.htm.
35
   Executive Order 12968, Access to Classified Information, August 4, 1995,
http://www.fas.org/sgp/clinton/eo12968.html. Executive Order 12968 order establishes a uniform federal
personnel security program for employees who will be considered for initial or continued access to classified
information.
The SEC’s Implementation of and Compliance with HSPD-12                                        March 31, 2011
Report No. 481
                                                    17
reciprocal recognition of eligibility for access to classified information among the
agencies.

Consistent with Executive Order 13467, on October 1, 2008, the DNI issued
Intelligence Community Directive (ICD) Number 704, Personnel Security
Standards and Procedures Governing Eligibility for Access to Sensitive
Compartmented Information and other Controlled Access Program Information. 36
This directive, among other things, requires the application of uniform personnel
security standards and procedures to facilitate effective initial vetting, continuing
personnel security evaluation, and reciprocity throughout the intelligence
community.

We contacted the DNI on January 5, 2011, to determine if the DNI had provided
the SEC with the designated authority to determine eligibility for access to
classified information. A Chief Assessment Officer at the DNI stated that based
on a review of DNI records, the SEC had not received authority to make eligibility
determinations for access to classified information.

We found that although the SEC has received authority from OPM to make
suitability determinations, 37 the SEC has not received the authority from the DNI
to make eligibility determinations for access to classified information or the
holding of a sensitive position. We found that notwithstanding this lack of
authority, the SEC has made eligibility determinations for access to classified
information and submitted to OPM adjudication actions for 26 employees and
contractors for access to classified information. In addition, we found that the
OED is using materials38 obtained from training sessions that OED personnel
have attended to make eligibility determinations for access to classified
information or the holding of sensitive positions, rather than the policies and
procedures issued by the DNI, which include ICD 704. 39 As a result, the OED
may have made determinations that particular employees or contractors should
receive access to classified information when, in fact, had the OED used the

36
   Intelligence Community Directive, Number 704, Personnel Security Standards and Procedures Governing
Eligibility for Access to Sensitive Compartmented Information and Other Controlled Access Program
Information, effective October 1, 2008, http://www.fas.org/irp/dni/icd/icd-704.pdf.
37
   See 5 C.F.R. § 731.103 – Delegation to agencies,http://ecfr.gpoaccess.gov/cgi/t/text/text-
idx?c=ecfr&sid=eff878f50f31e1d9d9fe7f90c34674ee&rgn=div5&view=text&node=5:2.0.1.1.7&idno=5, which
states, “(a) Subject to the limitations and requirements of paragraphs (f) and (g) of this section, OPM
delegates to the heads of agencies authority for making suitability determinations and taking suitability
actions (including limited, agency-specific debarments under §731.205) in cases involving applicants for and
appointees to covered positions in the agency.”
38
   The training materials used by OED personnel to make eligibility determinations to access classified
information were Revised Adjudicative Guidelines for Determining Eligibility for Access to Classified
Information, issued by the White House, on December 29, 2005; in a memorandum for William Leonard,
Director of Information Security Oversight Office, Subject: Adjudicative Guidelines, Signed by Stephen J.
Hadley, Assistant to the President for National Security Affairs; and Investigative Standards for Background
Investigations for Access to Classified Information, updated December 2004.
39
   While we found that there were similarities between the training materials used by the OED for making
eligibility determinations to access classified information and the appropriate eligibility standards outlined in
DNI’s ICD 704, there were also several differences and certain requirements in ICD 704 that were not in the
training materials utilized by the OED.
The SEC’s Implementation of and Compliance with HSPD-12                                           March 31, 2011
Report No. 481
                                                      18
uniform policies and procedures developed by the DNI, these determinations
may have not been favorable, based on the DNI’s guidelines. Additionally, if any
of the 26 employees or contractors were to transfer to another federal
department or agency, they could potentially be granted reciprocity when, in fact,
they might not have properly received a favorable determination.

We contacted the SEC Chairman’s Correspondence Office 40 to determine if the
SEC had received notice of Executive Order 13467 from the White House and if,
upon receipt, the Chairman’s Correspondence Office provided the OED with a
copy of the Executive Order and required the OED to take action to implement it.
The Chairman’s Correspondence Office indicated that it did not have a record of
receiving a copy of Executive Order 13467 (which the Correspondence Office
indicated was unusual), but that if it had received the Executive Order, it would
have referred the Executive Order to the OED for action. We were informed by
OED staff that they were aware of the issuance of Executive Order 13467;
however, they were unaware of any actions that were required on their part.

In summary, we determined that the SEC has acted outside of its authority in
making determinations of eligibility for access to classified information. Further,
we found that the 26 determinations of eligibility for access to classified
information made between June 2008 and December 2010 were not based on
the uniform policies and procedures developed by the DNI. Further, we found
that the determinations of eligibility for access to classified information that were
made by the OED might receive improper reciprocal recognition by other
agencies, which could result in persons receiving access to classified information
when, in fact, they should not have been granted eligibility to receive such
access.

     Recommendation 7:

     The Office of Executive Director should discontinue adjudicating all eligibility
     determinations for access to classified information or holding a sensitive
     position until the Securities and Exchange Commission has received an
     appropriate delegation of authority to conduct such determinations from the
     Director of National Intelligence.

     Management Comments. OED concurred with the recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased that OED concurred with this
     recommendation.




40
  We contacted the Chairman’s Correspondence Office on February 17, 2011, and February 23, 2011.
The SEC’s Implementation of and Compliance with HSPD-12                               March 31, 2011
Report No. 481
                                                19
     Recommendation 8:

     The Office of Executive Director should identify all eligibility determinations for
     access to classified information or holding a sensitive position adjudicated by
     the Securities and Exchange Commission since June 30, 2008 and, upon
     receipt of authority from the Director of National Intelligence, conduct a quality
     control assessment to ensure that the determinations were conducted in
     accordance with the uniform policies and procedures developed by the
     Director of National Intelligence.

     Management Comments. OED concurred with the recommendation.
     See Appendix VI for management’s full comments.

     OIG Analysis. We are pleased OED concurred with this
     recommendation.

     Recommendation 9:

     The Office of Executive Director, upon receipt of authority from the
     Director of National Intelligence to make eligibility determinations for
     access to classified information or holding a sensitive position, should
     use the uniform policies and procedures developed by the Director of
     National Intelligence when making such determinations.

     Management Comments. OED concurred with the recommendation.
     See Appendix VI for management’s full comments.

     OIG Analysis. We are pleased OED concurred with this
     recommendation.


Finding 3: OAS’s Physical Security Branch Is
Making Eligibility Determinations for Applicants
Seeking Temporary Access to SEC Facilities
Without the Proper Authority
        OAS’s Physical Security Branch is making eligibility
        determinations for applicants seeking temporary access 41 to
        SEC facilities without the proper authority. Additionally, the
        Physical Security Branch is not using the appropriate
        standards for making these determinations. As a result,


41
  Temporary access is defined as access to SEC facilities or logical access to SEC information systems for
a period of more than one day but less than six months.
The SEC’s Implementation of and Compliance with HSPD-12                                     March 31, 2011
Report No. 481
                                                   20
         applicants may unjustly be denied access to SEC facilities
         without the right to appeal.

According to 5 C.F.R. § 731.103, “OPM delegates to the heads of agencies
authority for making suitability determinations and taking suitability actions . . .
.” 42 As noted above, on January 27, 1986, the Chairman’s Office transferred
authority for the personnel security function to the OED and designated the ED
as the Commission’s Personnel Security Officer and the Director of Personnel
(i.e., the Associate Executive Director for Human Resources) as the Assistant
Personnel Security Officer. The transfer of this authority made the ED
responsible for the overall management of the SEC’s background investigation
program and OHR’s Personnel Security Branch responsible for administering the
program on behalf of the agency. Similarly, the OHR intranet site states, “The
Office of the Executive Director (OED) is responsible for overall management of
the SEC’s background investigation program, and OHR is responsible for
administering the program.”43

Executive Order 13467 defines “adjudication” as “the evaluation of pertinent data
in a background investigation, as well as any other available information that is
relevant and reliable, to determine whether a covered individual is: (i) suitable for
Government employment; (ii) eligible for logical and physical access; (iii) eligible
for access to classified information; (iv) eligible to hold a sensitive position; or (v)
fit to perform work for or on behalf of the Government as a contractor
employee.” 44

In the Federal Managers’ Financial Integrity Act Assurance Statement submitted
by OAS to the SEC Chairman on September 15, 2010, OAS stated, “We installed
electronic fingerprinting equipment to enhance the process of performing criminal
and background checks on employees, contractors, and intermittent vendors who
need access to SEC facilities.” 45

During this audit, we found that the Physical Security Branch staff conduct risk
assessments of contractors who require unescorted temporary access (i.e., for
periods of less than six months) to SEC facilities based on fingerprint results that
are received from the FBI, using an electronic fingerprint verification system
called the Civilian Applicant System (CAS). We also learned that the Physical
Security Branch staff use the CAS to collect fingerprints from temporary
contractors who are seeking unescorted access (e.g., construction staff) and
these fingerprints are then sent through the CAS system to the FBI. Within 24

42
   5 CFR § 731.103, Delegation to agencies.
43
   http://insider.sec.gov/human_resources/hiring_staffing/background-security-clearances.html.
44
   Executive Order 13467, Reforming Processes Related to Suitability for Government Employment, Fitness
for Contractor Employees, and Eligibility for Access to Classified National Security Information, June 30,
2008, http://www.fas.org/irp/offdocs/eo/eo-13467.htm.
45
   Memorandum to SEC Chairman Mary Schapiro from Sharon Sheehan, Associate Executive Director,
Office of Administrative Services, Subject: Federal Managers’ Financial Integrity Act Assurance Statement;
September 15, 2010, p. 6.
The SEC’s Implementation of and Compliance with HSPD-12                                        March 31, 2011
Report No. 481
                                                    21
hours, the FBI provides the Physical Security Branch with fingerprint results
indicating if the applicant has a criminal record and, if so, the types of crimes the
applicant has committed. Once the results are received in the CAS system, the
Physical Security Branch staff review the results and conduct a risk assessment
to determine whether the temporary contractor is an acceptable risk and can
work within the SEC’s facilities. If a favorable risk determination is made by
Physical Security Branch personnel, an on-site business badge is issued to the
temporary contractor. However, we found that the Physical Security Branch
does not have formal, documented procedures for its risk assessment process or
for the criteria it uses to determine the suitability of applicants.

Although we were informed in an interview that the Physical Security Branch
does not “perform OHR adjudications,” the Physical Security Branch
acknowledged that it conducts “a risk assessment of the candidates to determine
if the candidate poses a risk to the SEC staff or facilities.” In interviews, the
Physical Security Branch staff represented the following: “We (Physical Security
Branch) determine whether or not the person is a risk to other SEC employees.”
Moreover, it is clear from the results of our audit that the Physical Security
Branch is evaluating pertinent, relevant, and reliable data received from the FBI
to determine whether a covered individual is fit to perform work for or on behalf of
the government as a contractor employee. In conducting such evaluations, the
Physical Security Branch is relying upon results from the FBI to determine if the
person is of “acceptable risk” to perform work for or on behalf of the government.
Thus, the Physical Security Branch is engaged in evaluating an individual’s
background data to determine eligibility for physical access to agency facilities
and, therefore, is essentially performing an adjudication as that term is defined in
Executive Order 13467.

The Physical Security Branch has no written policies and procedures for
conducting its risk assessments and is not adhering to the OHR guidelines46 for
adjudications, which require uniformity in suitability case processes and
adjudication. In addition, these guidelines assist in adjudicating cases using
sound judgment, objectivity, and careful analysis, while ensuring that the
procedures used and the results of the determination are consistent and not
arbitrary.

Moreover, we were informed by the Physical Security Branch that the fingerprint
and risk assessment results are not communicated to the Personnel Security
Branch, even though the Personnel Security Branch is responsible for making
suitability determinations and for maintaining the repository of records that are
used in determining the eligibility of employees or contractors to access SEC
facilities. We confirmed during interviews with Personnel Security Branch staff
that the results of the Physical Security Branch’s risk assessments are not
provided to the Personnel Security Branch.

46
  OHR uses the Office of Personnel Management, Federal Investigative Services Division, Suitability
Processing Handbook, September 2008, as guidelines for its suitability/background investigations program.
The SEC’s Implementation of and Compliance with HSPD-12                                    March 31, 2011
Report No. 481
                                                  22
Accordingly, we found that the Physical Security Branch has been determining
the eligibility of individuals for temporary access to SEC facilities without the
authority to do and has not followed the appropriate standards in making these
determinations. Consequently, the Physical Security Branch may have provided
applicants access to SEC facilities where such access would have been denied
had the case been adjudicated under the OHR guidelines. Alternatively, the
Physical Security Branch may have unjustly denied persons access to SEC
facilities, and those individuals would not have any right of appeal.

    Recommendation 10:

    The Office of Administrative Services should immediately discontinue making
    eligibility determinations without proper authorization for persons requiring
    temporary access to Securities and Exchange Commission facilities or
    information systems.

    Management Comments. OAS concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased OAS concurred with this recommendation.

    Recommendation 11:

    The Office of Administrative Service should immediately provide the Office of
    Human Resources Personnel Security Branch with a list of all persons who
    have been provided or denied access based on the Physical Security
    Branch’s risk assessments, as well as a copy of all fingerprint records,
    supporting documentation, and the results of the risk assessments.

    Management Comments. OAS concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.

    Recommendation 12:

    The Office of Human Resources, in coordination with the Office of
    Administrative Services, should develop policies and procedures for
    determining the eligibility of contractors and visitors and guests requiring
    temporary access to Securities and Exchange Commission facilities or
    information systems.

    Management Comments. OHR concurred with the recommendation. See
    Appendix VI for management’s full comments.


The SEC’s Implementation of and Compliance with HSPD-12                  March 31, 2011
Report No. 481
                                               23
     OIG Analysis. We are pleased that OHR concurred with this
     recommendation.


Finding 4: PIV Cards Are Not Consistently
Enrolled in the SEC’s Physical Access Control
System and Badge Requirements for Physical
Access to SEC Facilities Have Not Been
Communicated to All Employees and Contractors
        The SEC’s regional offices have not consistently enrolled
        PIV badges into the SEC’s physical access control system.
        In addition, OAS has not communicated badging
        requirements for physical access to employees and
        contractors. As a result, the SEC has not met HSPD-12’s
        requirement to use PIV cards for gaining physical access to
        SEC-controlled facilities and information systems.

HSPD-12 states, “As promptly as possible, but in no case later than eight months
after the date of promulgation of the Standard, the heads of executive
departments and agencies shall, to the maximum extent practicable, require the
use of identification by federal employees and contractors that meets the
Standard in gaining physical access to federally controlled facilities and logical
access to federally controlled information systems.”47

Additionally, NIST, Special Publication 800-116, A Recommendation for the Use
of PIV Credentials in Physical Access Control Systems (PACS), states, “HSPD-
12 mandates the establishment of a government-wide standard for identity
credentials to improve physical security in federally controlled facilities.” 48 It
further notes, “HSPD-12 explicitly requires the use of PIV Cards ‘in gaining
physical access to federally controlled facilities and logical access to federally
controlled information systems.” 49

Employees and contractors working at the SEC’s headquarters and the
Operations Center receive their PIV badges from a GSA registrar who is located
in the SEC’s badging office at headquarters. At the time an employee or
contractor receives his or her badge from the GSA registrar, the employee or
contractor is enrolled into the SEC’s physical access control system, known as

47
   HSPD-12, http://csrc.nist.gov/drivers/documents/Presidential-Directive-Hspd-12.html.
48
   National Institute of Standards and Technology (NIST), Special Publication 800-116, A Recommendation
for the Use of PIV Credentials in Physical Access Control Systems (PACS), November 2008, p. 4 [footnote
omitted], http://csrc.nist.gov/publications/nistpubs/800-116/SP800-116.pdf.
49
   NIST Special Publication 800-116, page 4, http://csrc.nist.gov/publications/nistpubs/800-116/SP800-
116.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                       March 31, 2011
Report No. 481
                                                    24
the Diebold Hirsh system. However, in the regional offices, employees and
contractors receive their PIV badges (also referred to as credentials and HSPD-
12 badges) at a GSA Managed Service Office (MSO), which is normally located
off site. After receiving their PIV badges, these employees and contractors must
return to their assigned regional office and inform their administrative officer (or
other designated person) that they are in possession of the PIV badge in order
for it to be enrolled into the SEC’s physical access control system and/or a
building-owned, proprietary physical access control system.

As part of our fieldwork, we conducted a survey of the SECs 11 regional offices 50
to determine if employees and contractors who have been issued HSPD-12
badges have had them enrolled into the SEC’s physical access control system.
All 11 regional offices responded to the survey and indicated that a physical
access control system, either the Diebold Hirsh system or a building-owned
proprietary system, is used to access the SEC’s office space at the regional
offices. However, based on the survey, as answered by the administrative
officers in the regional offices, only 37 percent of the regional offices responded
that employee badges are enrolled into the physical access system and only 46
percent responded that contractor badges are enrolled into the physical access
control system. In fact, only 2 of the 11 regional offices that responded on this
issue indicated that they have been notified by an SEC employee when an
HSPD-12 badge has been issued to the employee, and only 1 of the 11 regional
offices indicated that it either received an e-mail or phone call from the Personnel
Security Branch notifying it of the issuance of an HSPD-12 badge. The
remaining 7 regional offices responding on this issue stated that they are not
notified when an employee has been issued an HSPD-12 badge.

OAS has informed us that it was unaware of any official guidance issued to
agency staff or the regional offices requiring enrollment of PIV credentials into
the SEC’s physical access control system and further stated that the PIV
credentials would be the primary physical access badge used by SEC employees
and contractors. In addition, the Physical Security Branch advised us that
enrollment of the PIV badge and SEC badges into the physical access control
system is done locally at the regional offices and that the regional offices’
administrative officers, not headquarters, are responsible for enrolling the HSPD-
12 badges into the physical access control system. However, the OIG survey
found that the administrative officers at the regional offices are not requiring the
enrollment of PIV credentials into the SEC’s physical access control system.

Additionally, we found that on October 2, 2006, OAS distributed a newsletter to
Division/Office Heads; Regional Directors/District Administrators, administrative
officers, and Budget Analysts that provided information regarding HSPD-12 and
changes to the SEC’s physical access control system that would take place to
support the new PIV cards. However, the newsletter did not indicate that OAS

50
  The SEC’s 11 regional offices include are Atlanta, Boston, Chicago, Denver, Fort Worth, Los Angeles,
Miami, New York, Philadelphia, Salt Lake City, and San Francisco.
The SEC’s Implementation of and Compliance with HSPD-12                                    March 31, 2011
Report No. 481
                                                  25
expected that the PIV credential would be the primary badge used by SEC
employees and contractors.

We found that OAS’s lack of guidance or communication of its expectations to
regional offices’ administrative officers (or other designated staff) regarding the
enrollment of PIV badges in the SEC’s physical access control system located
within their specific regional office has resulted in the failure of administrative
officers to understand management’s expectations for enrolling PIV badges into
the physical access control system. In addition, we found that administrative
officers, or designated persons in charge of enrolling badges into the physical
access control system, are not informed in most cases by OHR or the badge
holders (i.e., SEC employees and contractors) that they are in possession of a
PIV credential so it can be enrolled. As a result, the SEC has not met the HSPD-
12’s requirements to use the PIV cards to gain physical access to the SEC’s
regional office facilities and thus, has not taken advantage of the significant
benefits of the PIV cards, as noted above, including greater security by virtue of
enhanced authentication, increased government efficiency, reduction of identity
fraud, and increased protection of personal privacy.

    Recommendation 13:

    The Office of Administrative Services should communicate to regional office
    staff its expectations for enrolling Personal Identity Verification credentials
    into their physical access control systems and using the Personal Identity
    Verification credential as the primary badge for physical access to Securities
    and Exchange Commission facilities.

    Management Comments. OAS concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.

    Recommendation 14:

    The Office of the Executive Director should require administrative officers in
    the regional offices, or designated points of contact, to enroll Personal Identity
    Verification cards in the Securities and Exchange Commission’s physical
    access control system.

    Management Comments. OED concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OED concurred with this
    recommendation.


The SEC’s Implementation of and Compliance with HSPD-12                  March 31, 2011
Report No. 481
                                               26
     Recommendation 15:

     The Office of the Executive Director should communicate to all Securities and
     Exchange Commission employees and contractors their responsibility to
     inform the appropriate regional office official that they have been issued a
     Personal Identity Verification card so that the card can be enrolled into the
     Securities and Exchange Commission’s physical access control system.

     Management Comments. OED concurred with the recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased that OED concurred with this
     recommendation.


Finding 5: OAS’s Physical Security Branch
Badging Policy Is Outdated and Does Not Include
Procedures for Issuance and Revoking of Badges
        OAS’s Physical Security Branch does not have current
        policies and procedures for issuing and revoking badges or
        for requiring the use of the PIV credentials as the common
        means of authentication for access to SEC facilities and
        information systems. As a result, SEC employees and
        contractors could obtain access to SEC facilities beyond
        their separation date and also may be unaware of the right to
        appeal a decision denying or revoking their credentials.

OMB Circular A-123 states, “Management controls are the organization, policies,
and procedures used to reasonably ensure that: (i) programs achieve their
intended results; (ii) resources are used consistent with agency mission; (iii)
programs and resources are protected from waste, fraud, and mismanagement;
(iv) laws and regulations are followed; and (v) reliable and timely information is
obtained, maintained, reported and used for decision making.” 51

FIPS 201-1 provides that an agency’s PIV implementation must include “a
revocation process . . . such that expired or invalidated credentials are swiftly
revoked.” 52 Further, FIPS 201-1 states, “The PIV credential shall be revoked if
the results of the investigation so justify.” 53 In addition, FIPS 201-1 requires


51
   The Office of Management and Budget’s, Circular A-123, To the Heads of Executive Departments and
Establishments; From: Alice M. Rivlin, Director; Subject Management Accountability and Control; Revised
June 21, 1995; http://www.whitehouse.gov/omb/circulars_a123/ (Accessed on 02/03/2011).
52
   FIPS 201-1, p. 5, http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
53
   FIPS 201-1, p. 6, http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                     March 31, 2011
Report No. 481
                                                   27
agencies to “[m]aintain appeals procedures for those who are denied a credential
or whose credentials are revoked.” 54

In addition, M-05-24 requires agencies, prior to identification issuance, to
“[d]evelop, implement and post in multiple locations (e.g., agency intranet site,
human resource offices, regional offices, provide at contractor orientation, etc.)
[the] department’s or agency’s … appeals procedures for those denied
identification or whose identification credentials are revoked….”55

In addition, OMB Memorandum M-11-11, Continued Implementation of
Homeland Security Presidential Directive (HSPD) 12 – Policy for a Common
Identification Standard for Federal Employees and Contractors, 56 states that
“each agency should develop and issue an implementation policy, by March 31,
2011, through which the agency will require the use of the PIV credentials as the
common means of authentication for access to that agency’s facilities, networks,
and information systems.” Based on our review of the SEC’s policies and
procedures, we determined that the agency has not developed and issued an
implementation policy that requires the use of the PIV credentials as the common
means of authentication for access to the SEC’s facilities, networks, and
information systems.

Further, GSA’s PIV Card Issuer Operations Plan states in Section 4.1.3,
Expiration Date Requirements, that “All credentials issued by MSO [GSA’s
Managed Service Office] must have an expiration date printed on the card. The
expiration date for all credentials must be 5 years or less from the date of
issuance. The expiration date of Foreign Nationals cannot exceed the expiration
date of their INS documents (green card, work permit, etc.).”57

We found that the Physical Security Branch does not have formal, approved
operating procedures. We were informed by Physical Security Branch staff that
the operating procedures were in draft and are currently under internal review.

Additionally, we determined that the SEC’s existing badging policy, SECR 5-2,
Identification Cards, Press Passes and Proximity Access Control Cards, 58 is
outdated and does not reflect the SEC’s current badging policies and procedures
or identify the types of badges that are issued. The existing badging policy does
not include policies or procedures for (1) the various badge types that the SEC
issues (including visitor and PIV badges), (2) revoking badges, or (3) appealing


54
   FIPS 201-1, p. 7, http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
55
   M-05-24, p. 9, Section 6.F, http://www.whitehouse.gov/omb/memoranda/fy2005/m05-24.pdf.
56
   OMB Memorandum M-11-11, Continued Implementation of Homeland Security Presidential Directive
(HSPD) 12 – Policy for a Common Identification Standard for Federal Employees and Contractors, February
3, 2011, http://www.whitehouse.gov/sites/default/files/omb/memoranda/2011/m11-11.pdf.
57
   GSA USAccess PIV Card Issuer Operations Plan, Version 1.0, CM # GSA-DI-0000129-1.4.0, August 1,
2007, Section 4.1.3, p. 80.
58
   SECR 5-2, Identification Cards, Press Passes and Proximity Access Control Cards, November 8, 1999,
http://insider.sec.gov/policies_procedures/admin_regulations/r5-2.html.
The SEC’s Implementation of and Compliance with HSPD-12                                     March 31, 2011
Report No. 481
                                                   28
revocation of badges. 59 In addition, the existing badging policy is not consistent
with the SEC’s current informal policies and procedures for issuance of badges.
For example, SECR 5-2 provides that regular SEC identification cards are valid
for three years. 60 However, Physical Security Branch staff informed us that its
normal protocol is to issue a badge for two years from the date of issuance, and
that the expiration date of the badge is not always consistent with the termination
date requested by the Administrative Office or Designee on the
Identification/Access Control Card Worksheet. The Identification/Access Control
Card Worksheet is used by the Physical Security Branch to create badges for
employees and contractors. In addition, we found that PIV credentials are issued
with a standard five-year expiration date and, in some cases, have exceeded the
contractor end-dates and could potentially exceed the expiration dates of INS
documents (e.g., green card, work permit) for foreign nationals.

We also reviewed SECR 5-2 61 to determine if the SEC’s appeals procedures for
individuals who are denied identification and its revocation process for expired or
invalidated credentials were appropriately documented and posted to the SEC’s
intranet site. We found that SECR 5-2 does not include the SEC’s appeal
procedures for individuals whose credentials were denied or revoked.

We also obtained a physical access control log report from the SEC’s physical
access control system (PACS), on September 7, 2010. After reviewing the
PACS log, we found that there were multiple instances where employees or
contractors were issued and are in possession of two types of badges that permit
physical access (1) a PIV badge (referred to in the log as PIV II Template) and
(2) a SEC badge (referred to in the log as Default Template).

During an interview with OAS staff, we were informed that it is OAS’s expectation
that the HSPD-12 badges will be used as the primary physical access badge for
employees and contractors requiring physical access to SEC facilities for more
than six months. Although OAS indicated that the HSPD-12 badge will be the
primary physical access badge, we were informed that OAS determined that it
would allow the currently issued SEC badges to expire in lieu of revoking them
from current users (employees and contractors). In addition, in an interview with
Physical Security Branch staff, we were informed that the Physical Security
Branch determined that it would not revoke SEC badges for individuals who have
been issued HSPD-12 badges, because the Physical Security Branch felt that
deactivating SEC-issued badges would “unnerve” employees and contractors,
who prefer the SEC-issued badge over HSPD-12 badge.



59
   The SEC OIG issued Report of Investigation No. OIG-544, OIT Contract Employees Given Access to SEC
Buildings and Computer Systems for Several Weeks Before Background Investigation Clearance, on
January 20, 2011. The Report of Investigation found that the Physical Security Branch has no written policy
available on when visitor badges are to be issued.
60
   SECR 5-2, Section 2.a(3), http://insider.sec.gov/policies_procedures/admin_regulations/r5-2.html.
61
   SECR 5-2, Section A.2.a(3), http://insider.sec.gov/policies_procedures/admin_regulations/r5-2.html.
The SEC’s Implementation of and Compliance with HSPD-12                                      March 31, 2011
Report No. 481
                                                   29
As previously mentioned, the OIG sent a survey to administrative officers or other
designated persons in the SEC’s 11 regional offices to obtain an understanding
of the regional offices’ badging practices. Our survey asked, “When an SEC
employee is no longer employed at the SEC (retires, quits, is terminated,
transfers to a job outside of the SEC, etc.), identify who obtains the employees
badge.” The survey respondents answered as follows:

        •    16.7 percent – “I obtain the badge and retain it in my
             office desk/cabinet or in a secured desk/cabinet.”
        •    16.7 percent – “I obtain the badge and return it to the
             SEC’s badging office.”
        •    16.7 percent – “I obtain the badge and return it to the
             SEC’s OHR, Personnel Security Branch.”
        •    8.3 percent – “I obtain the badge and shred it, put it in a
             recycling bin, or put it in a trash receptacle.”
        •    8.3 percent – “I do not know.”
        •    33.3 percent – Other.

Thus, our survey indicated that there were widely varying practices among the
regional offices for the proper disposition of the badges of employees who have
separated from the SEC. We noted that SECR 5-2 states that in the Regional
and District Offices, the Administrative Contact or Staffing Assistant should
destroy the employee’s regular identification card or special credential by cutting
it into pieces and documenting the date of destruction in a logbook. 62 However,
this policy was issued in November 1999 and may no longer reflect the proper
procedures for disposition of the badges of separated SEC employees.

In addition, we surveyed administrative officers or other designated persons in
the regional offices about the actions they take when a contractor separates, and
91 percent of the respondents indicated that they collect the badges. We noted
that SECR 5-2 does not specify any procedure for handling the badges of
separated contractors in the regional offices. 63

We also surveyed contracting officials, including Contracting Officers (CO),
Contract Specialists, COTRs, and IAOs across the Commission regarding what
happens to contractors’ badges when they separate or when their period of
performance ends. Overall, 87 of 196 contracting officials responded to the
survey; however, only 76 of the respondents completed the survey. In response
to the question, “When a contractor is no longer assigned to an SEC contract
(e.g., separation, termination, removal), or when the contract’s period of
performance ends, identify the disposition of the SEC badge,” survey
respondents stated the following:



62
  SECR 5-2, Section 10.c(3), http://insider.sec.gov/policies_procedures/admin_regulations/r5-2.html.
63
  SECR 5-2, Section 10.c, http://insider.sec.gov/policies_procedures/admin_regulations/r5-2.html.
The SEC’s Implementation of and Compliance with HSPD-12                                    March 31, 2011
Report No. 481
                                                  30
             •   23.4 percent – The badge is returned to the SEC’s
                 badging office.
             •   26 percent – Did not know the disposition of the
                 badge.
             •   7.8 percent – The badge is taken by the CO, COTR,
                 or IAO.
             •   6.5 percent – The badge is taken to the OHR
                 Personnel Security Branch.
             •   36.4 percent – Other.

According to the procedures outlined in SECR 5-2, contractors are required to
turn in their identification cards to their COTR upon termination of the contract,
employment, etc. 64 However, this policy does not provide guidance to the
COTRs on their responsibilities for handling badges once the contractor has
been terminated or the contract’s period of performance has ended. Additionally,
we were unable to locate any policy or procedure that specified how COTRs
should handle badges once they have received them from contractors.

Based on the results of both of our surveys, we found that the regional offices
and contracting officials are not consistently obtaining the badges of employees
and contractors who are separating from the SEC and there is no consistent
practice for handling the badges of separated employees and contractors.
Further, we found that the SEC does not have any updated policies and
procedures for revoking PIV badges. In addition, we were unable to locate any
references to the SEC’s appeal procedures for individuals who have had
credentials denied or revoked.

As a result, SEC employees and contractors could obtain physical access
to SEC facilities beyond their separation date. In addition, employees and
contractors who are denied credentials or whose credentials are revoked
may be unaware of their rights to due process and their ability to appeal
the initial decision.

     Recommendation 16:

     The Office of the Executive Director should develop and implement a policy
     requiring the Personal Identity Verification badge to be used as a common
     and primary means of authentication for physical and logical access.

     Management Comments. OED concurred with the recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased OED concurred with this recommendation.

64
  SECR 5-2, Sections 10.a(3) and 10.b(2), http://insider.sec.gov/policies_procedures/admin_regulations/r5-
2.html. We note that these requirements only pertain to the Commission’s former Headquarters building
(Judiciary Plaza) and the Operations Center/ Annex, and are thus outdated.
The SEC’s Implementation of and Compliance with HSPD-12                                    March 31, 2011
Report No. 481
                                                   31
    Recommendation 17:

    The Office of Administrative Services should revise and update its
    Identification Cards, Press Passes and Proximity Access Control Cards policy
    to reflect current and proper practices for issuance and revocation of badges,
    including Personal Identify Verification cards, to Securities and Exchange
    Commission employees and contractors at all Commission facilities and post
    the revised policy on the Commission’s intranet site. In addition, the Office of
    Administrative Services should communicate the new policy to all employees
    and contracting officials.

    Management Comments. OAS concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.

    Recommendation 18:

    The Office of Administrative Services should develop and implement a plan to
    systematically revoke all Commission-issued badges for all employees and
    contractors who have been issued Personal Identify Verification badges and
    ensure the plan is implemented within six months of the date this report is
    issued.

    Management Comments. OAS concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.

    Recommendation 19:

    The Office of Human Resources should develop, implement, and post in
    multiple locations (agency intranet site, human resource offices, regional
    offices, contractor orientation, etc.) its appeals procedures for individuals who
    are denied credentials or whose credentials are revoked.

    Management Comments. OHR concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OHR concurred with this
    recommendation.




The SEC’s Implementation of and Compliance with HSPD-12                  March 31, 2011
Report No. 481
                                               32
Finding 6: OHR’s Personnel Security Branch
Does Not Have Policies and Procedures for
Adjudicating Foreign Nationals
        OHR’s Personnel Security Branch does not have policies or
        procedures specific to adjudicating foreign nationals. As a
        result, the Personnel Security Branch may be inconsistently
        applying suitability guidelines to foreign nationals.

M-05-24 provides, “Since Foreign National employees and contractors may not
have lived in the United States long enough for a NACI [National Agency Check
with Inquiries] to be meaningful, agencies should conduct an equivalent
investigation, consistent with your existing policy.” 65 As described in the OPM
Suitability Processing Handbook, a NACI investigation consists of searches of
the following records: OPM’s Security/Suitability Investigations Index (SII); an
FBI Name Check and National Criminal History fingerprint check; the Department
of Defense Clearance & Investigations Index; and other records covering specific
areas of an individual’s background. In addition, a NACI includes written inquires
to references, employers, places of education and residence, and other record
sources covering specific areas of an individual’s background. 66

The OPM Suitability Processing Handbook further states, “Materials to be
retained for an OPM Appraisal. The following information pertaining to suitability
adjudications will be maintained for OPM review: The agency’s suitability
regulations and/or instructions.”67 We found that SEC’s OHR Personnel Security
Branch adopted OPM’s Suitability Processing Handbook as its primary guide for
all suitability investigations as a result of an OIG recommendation contained in
the 2008 Background Investigations inspection report. 68 However, based on our
review of OPM’s Suitability Processing Handbook, we determined that the
handbook does not have procedures or policies for adjudicating Foreign
Nationals.

In addition, although the Personnel Security Branch had previously informed the
OIG that procedures for processing foreign nationals participating in the SEC’s
Law Student Observer program had been completed, it did not produce any such
procedures. Therefore, we were unable to confirm that procedures for
processing foreign national student observers were developed or issued.

As a result, personnel security activities with respect to foreign nationals may not
be consistently followed or conducted in accordance with federal requirements.


65
   M-05-24, page 5, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
66
   OPM Suitability Processing Handbook, September 2008, p. 3.
67
   OPM Suitability Processing Handbook, September 2008, p. XI-3, Section D.
68
   OIG Background Investigations Inspection Report No. 434, March 28, 2008, Recommendation A.
The SEC’s Implementation of and Compliance with HSPD-12                                  March 31, 2011
Report No. 481
                                                 33
In addition, background investigations of foreign nationals may be adjudicated
using record searches that are not equivalent to a NACI.

     Recommendation 20:

     The Office of Human Resources should develop internal policies and
     procedures for suitability determinations for foreign nationals.

     Management Comments. OHR concurred with the recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased that OHR concurred with this
     recommendation.


Finding 7: OIT is Unaware of the Number of
Devices in Its Inventory That Would Physically
Permit Authentication of PIV Cardholders
Accessing SEC’s Logical Information Resources
        OIT’s asset inventory does not account for keyboards and
        lacks detail to easily verify laptops that have physical
        features (i.e., card readers) to permit authentication of PIV
        credentials. As a result, there is a risk that OIT will purchase
        additional equipment to support the use of PIV credentials
        for logical access when it already has the equipment in its
        inventory.

HSPD-12 requires that by October 2005, eight months after promulgation of the
Standard, the SEC should require the use of the PIV credential for gaining logical
access to federally controlled information systems. 69

In our report 2010 Annual FISMA Executive Summary Report, Report No. 489,
we found that OIT has not completed logical access integrations of PIV
credentials. As a result, we recommended that OIT complete the logical access
integration of the HSPD-12 cards by no later than December 2011, as the SEC
had reported to OMB on December 31, 2010.

In addition to the above-mentioned finding and recommendation, we found that
OIT has deployed keyboards and laptops that have card readers to employees
and contractors without tracking which specific devices actually have card
readers. Furthermore, in the survey we issued to the regional offices, 9 of 11

69
  HSPD-12, http://csrc.nist.gov/drivers/documents/Presidential-Directive-Hspd-12.html.
The SEC’s Implementation of and Compliance with HSPD-12                                  March 31, 2011
Report No. 481
                                                   34
regional office representatives responded that desktops have not been deployed
to support logical access to the SEC’s network using HSPD-12 badges.

OIT informed us that it has not tracked the number of keyboards containing card
readers because it has classified keyboards as a consumable device 70 and
consequently has not maintained an inventory of them. Based on our audit, we
believe this information should be tracked notwithstanding the classification of
keyboards as a consumable device because it is important for OIT to know
whether keyboards contain card readers to avoid unnecessary expenditures. In
addition, OIT’s asset inventory does not contain detailed information regarding
which laptops have card readers installed. As a result, the SEC is not aware of
the hardware in its inventory that can be used for authentication once the SEC
deploys identity management software throughout the enterprise to support the
logical access requirements of HSPD-12. Without conducting an inventory of all
keyboards and laptops with card readers, OIT may unnecessarily purchase new
keyboards and laptops with card readers or external card readers. By identifying
the keyboards and laptops that have card readers, OIT will be able to save the
agency the unnecessary costs of purchasing additional equipment.

     Recommendation 21:

     The Office of Information Technology should immediately conduct an audit of
     its inventory to identify and track all keyboards and laptops that contain card
     readers.

     Management Comments. OIT concurred with the recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased that OIT concurred with this
     recommendation.

     Recommendation 22:

     The Office of Information Technology should promptly deploy appropriate
     technology (e.g., laptops with internal card readers, keyboards with card
     readers, or external card readers) to employees and contractors who do not
     have card readers.

     Management Comments. OIT concurred with the recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased that OIT concurred with this
     recommendation.


70
  OIT considers a “consumable device” to include a piece of hardware such as a keyboard or a mouse that
costs less than $250 and is not a storage device (e.g., an external hard drive).
The SEC’s Implementation of and Compliance with HSPD-12                                  March 31, 2011
Report No. 481
                                                 35
Finding 8: OIT Has Unnecessarily Employed Two
Full-Time Registrars
        OIT employs two full-time registrars; however, based on the
        average number of transactions processed per day, the SEC
        requires only one part-time registrar.

As described in FIPS 201-1, a registrar (also referred to as a PIV registrar) is
responsible for identity proofing of applicants and ensuring the successful
completion of background checks. In addition, the registrar provides the final
approval for the issuance of a PIV credential to the applicant. 71

At the onset of HSPD-12 implementation, OIT decided to use a shared service
provider, GSA, for its implementation of HSPD-12. GSA has provided the SEC
with an identity management and credentialing solution for end-to-end services,
including proofing and registering applicants, issuing credentials, and managing
the lifecycle of credentials.

GSA Managed Service Offices (MSOs) are conveniently located throughout the
United States and have multiple locations in the District of Columbia (D.C.)
metropolitan area. Although MSOs are located throughout the D.C. metropolitan
area, GSA established an MSO office at SEC headquarters due to its proximity to
Union Station. GSA provided the enrollment and activation stations at no cost to
the SEC, but with the stipulation that the MSO at the SEC would be a shared
center, meaning it would be available to both SEC employees and contractors
and non-SEC employees and contractors.

In addition, for a limited period of time, GSA provided the SEC with one registrar
at no cost. The SEC agreed to house the MSO at headquarters to afford SEC
employees and contractors the convenience of registering and activating
credentials without having to go off-site. However, SEC employees and
contractors who work in the regional offices would be required to register and
activate credentials at their local MSO. While the SEC initially did not pay for the
registrar located at SEC headquarters, beginning in June 2009, as a result of
delays in the SEC’s implementation of the HSPD-12 initiative, the SEC began
paying for the headquarters registrar. The SEC is paying approximately $72,000
annually for a full-time register at its headquarters. In June 2010, at the request
of OIT, the SEC opened a second MSO at the Operations Center on the premise
that it would be less costly to pay for an on-site station than to have contractors
spend several hours going back and forth between the Operations Center and
headquarters to register and activate their credentials. The MSO located at the
Operations Center is also operated by a full-time register, which costs the



71
  FIPS 201-1, page 52, http://csrc.nist.gov/publications/fips/fips201-1/FIPS-201-1-chng1.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                       March 31, 2011
Report No. 481
                                                    36
Commission an additional $72,000 72 annually. The Operations Center MSO is
only for the use of SEC employees and contractors and is not a shared center.

Based upon interviews and a review of the registrar schedule, we determined
that for each transaction to register or activate an HSPD-12 badge, the registrar
is allocated 15 minutes to complete the transaction. The SEC’s HSPD-12
agency role administrator provided the number of transactions that occurred at
both MSO offices located in SEC facilities, at headquarters and the Operations
Center, from May 2010 through November 2010. Based on the data provided by
the SEC, we determined that the MSOs, on behalf of the SEC, processed a total
of 1,215 transactions — 1,029 at headquarters (an average of 147 transactions
per month and 7 transactions per day) 73 and 186 at the Operations Center (an
average of 27 transactions per month and 1 transaction per day). 74 See Table 4
below for a breakdown of the number of transactions by month.

     Table 4: Number of Transactions Processed between May
     2010 and November 2010 by Registrars
               Month                     Headquarters             Operations Center
      May 2010                                 113                           44
      June 2010                                136                           17
      July 2010                                185                           14
      August 2010                              141                           37
      September 2010                           199                           20
      October 2010                             132                           37
      November 2010                            123                           17
      Total                                   1,029                         186
     Source: OIG-generated.

Based on our analysis of the transaction data, we determined that the register at
headquarters is processing an average of only seven transactions in an eight-
hour workday, and the registrar at the Operations Center is processing only one
transaction in an eight-hour workday. Yet we determined from a review of the
GSA scheduling timeframes that it takes approximately 15 minutes to complete a
transaction. Therefore, the registrar at headquarters is working on processing
transactions for an average of only one hour and 45 minutes per day, 75 and the


72
   This number, $72,000, is an approximation not an exact figure.
73
   We calculated the average number of transactions per month of 147 by dividing the total number
transactions at Headquarters of 1,029 by seven months. Based on 20 working days per month and average
transactions per month of 147, we calculated the average transactions per day to be 7.35, and rounded to 7
transactions per day.
74
   We calculated the average number of transactions per month of 27 by dividing the total number of
transactions at the Operations Center of 186 by seven months and rounding up. Based on 20 working days
per month and the average transactions per month of 27, we calculated the average transactions per day to
be 1.35, rounded to one transaction per day.
75
   Based on the average number of transactions per day at Headquarters of seven, multiplied by the time
allotted for a transaction of 15 minutes, divided by 60 minutes (number of minutes in an hour), the average
The SEC’s Implementation of and Compliance with HSPD-12                                       March 31, 2011
Report No. 481
                                                     37
registrar at the Operations Center is working on processing transactions for an
average of only 15 minutes per day. 76 Combined, the registrars are spending an
average of only two hours per day processing transactions. The SEC could
realize a significant cost savings by eliminating one full-time registrar and making
the other registrar part-time, 77 for a total cost savings of $108,000 annually. This
$108,000 represents the cost the OIG identified that is considered cost savings
and/or funds put to better use. See Table 5 in Appendix V for cost savings.

Delays in the SEC’s implementation of the HSPD-12 directive caused the SEC to
fail to realize the benefits of using a full-time registrar at no cost to the
Commission. If the SEC had achieved the time requirements set forth in the
implementation standard, the agency would have issued badges to all employees
and contractors and integrated the credentials into their physical and logical
access controls systems by October 2008. As a result of implementation delays,
OIT has had to pay for the cost of the registrar located at headquarters since
June 2009.

In addition, the SEC did not conduct an analysis before employing a second full-
time registrar or consider alternative options, such as splitting the time of the
existing registrar between both facilities or hiring a part-time registrar to work at
the Operations Center. While OIT represented that managers determined it
would be cheaper, they were unable to provide a formal analysis. As a result,
the SEC has expended a total of approximately $144,000 78 which would not have
had to be spent if the Commission had implemented HSPD-12 within the
required timeframes. 79 Moreover, by not conducting an analysis prior to
employing an additional full-time registrar, the SEC has expended unnecessary
costs to employ two full-time registrars when, based on an eight-hour workday,
the two registrars combined are spending an average of only two hours per day
processing transactions.




amount of time used to process transactions in an eight-hour work day is 1.75 hours or one hour and 45
minutes.
76
   Based on the average number of transactions per day at the Operations Center of one multiplied by the
time allotted for a transaction of 15 minutes, divided by 60 minutes (number of minutes in an hour), the
average amount of time used to process transactions in an eight-hour workday is 0.25 hours, or 15 minutes.
77
   The annual cost of one registrar is approximately $72,000 (eight-hour work day), and the cost of a
registrar working a four-hour workday equals approximately $36,000.
78
   The total expended to employ a registrar located at Headquarters is the annual cost of $72,000 multiplied
by 1.5 years (June 2009 – December 2010), which equals $108,000. The total cost expended for the
registrar located at the Operations Center is the annual cost of $72,000 multiplied by .5 year (June 2010 –
December 2010), which is $36,000. Therefore, the total cost of employing registrars at Headquarters and
the Operations Center from June 2009 through December 2010 was approximately $144,000.
79
   The requisite timeframes included verification and/or completion of background investigation for all current
employees and contractors, except for employees with more than 25 years of federal service by October 27,
2007, and completion of background investigations for all employees with more than 15 years of federal
service by October 27, 2008. M-05-24, p. 6,
http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                        March 31, 2011
Report No. 481
                                                     38
     Recommendation 23:

     The Office of Information Technology should eliminate one-full time registrar
     and split the time of the other full-time registrar between the Operations
     Center and headquarters locations.

     Management Comments. OIT concurred with the recommendation. See
     Appendix VI for management’s full comments.

     OIG Analysis. We are pleased that OIT concurred with this
     recommendation.


Finding 9: OAS’s Physical Security Branch Is Not
Maintaining Visitor Logs in Accordance with the
Applicable Record Retention Policies
        OAS’s Physical Security Branch is not maintaining visitor
        record logs in accordance with the National Archives and
        Records Administration’s (NARA) two-year general records
        schedule. As a result, the Physical Security Branch is
        unable to analyze visitor logs to determine if visitors are
        accessing the agency inappropriately (i.e., circumventing the
        badging process for persons requiring access longer than six
        months).

The Physical Security Branch maintains visitor control logs (referred to as the e-
visitor, or the EZLobby or eAdvance system) for 90 days. The EZLobby system
is used by the Physical Security Branch staff at headquarters and the Operations
Center to capture detailed visitor information and issue badges. The EZLobby
system allows the Physical Security Branch personnel at headquarters and the
Operations Center to share visitor information, and it allows SEC employees to
use a web-based tool (eAdvance) to pre-register guests and receive e-mail
notification when visitors check in. Finally, EZLobby allows OAS managers to
perform analysis of and generate reports on visitor data. 80

NARA’s General Records Schedule 18, Security and Protective Services
Records, Section 17, Visitor Control Files, states, “Registers or logs used to
record names of outside contractors, service personnel, visitors, employees
admitted to areas, and reports on automobiles and passengers. (a) For areas
under maximum security. Destroy 5 years after final entry or 5 years after date of
document, as appropriate. (b) For other areas. Destroy 2 years after final entry

80
  List of SEC Systems. http://intranet.sec.gov/knowledge_center/SEC%20Systems/index.html.
The SEC’s Implementation of and Compliance with HSPD-12                                March 31, 2011
Report No. 481
                                                39
or 2 years after date of document, as appropriate.”81 The Physical Security
Branch informed us that EZLobby logs are maintained for 90 days. On
November 16, 2010, the Physical Security Branch provided the OIG with a copy
of data retrieved from OAS’s e-Visitor (also called EZLobby or eAdvance)
system. After reviewing the data output “check in” and “check out” dates, we
confirmed that the e-Visitor log provided by the Physical Security Branch was for
only a 90-day period (August 15, 2010, to November 16, 2010). Retention of
visitor logs for 90 days does not satisfy the two-year retention requirement set
forth by the NARA General Records Schedule for Security and Protective
Services Records.

Further, an initial review of data output from EZlobby revealed that some names
appeared multiple times. As a result, we sorted the data output by last name and
then first name using Microsoft Excel. Upon completion of the data sort, we
reviewed and analyzed the results to identify individuals who appeared to have
visited the SEC on a frequent and sometimes daily basis between August 15,
2010, and November 16, 2010. Of the 16,766 entries in data output from
EZLobby, approximately 107 visitors accessed the SEC almost daily during the
time period examined. The Security Reminder contained in the SEC’s eAdvance
Visitor Pre-Registration System states, “EZLobby badges are temporary badges
issued to SEC visitors or individuals required to be on site for one day. An
EZLobby badge requires an escort at all times. The EZLobby badge is not to be
used in lieu of, or while your employee is waiting for issuance of a permanent
badge.”

Due to the lack of data for a period beyond 90 days, we are unable to determine
if visitors were obtaining access for a period greater than six months. However,
we were able to ascertain, based upon the frequency with which their names
appeared in the data output, that approximately 107 visitors did not appear to
comply with the Security Reminder, which indicates that temporary badges are
issued to visitors for one day and should not be used in lieu of a permanent
badge. Based on our review and analysis, we determined that the SEC is
potentially permitting access to visitors through the issuance of daily visitor
passes in circumvention of the SEC’s HSPD-12 badging process.

In addition, M-05-24 states that agencies who employ temporary personnel
should “[d]evelop agency-specific visitor policies (as appropriate) for occasional
visitors.” 82 On January 20, 2011, the OIG issued Report of Investigation OIT
Contract Employees Given Access to SEC Buildings and Computer Systems for
Several Weeks Before Background Investigation Clearance, Report No. OIG-
544. The Report of Investigation determined that the Physical Security Branch
had no written policy for when visitor badges were to be issued and
recommended the issuance of a written policy on the proper issuance and

81
   NARA General Records Schedule 18, Security and Protective Services Records, Transmittal No. 22, April
2010, http://www.archives.gov/records-mgmt/grs/grs18.html.
82
   M-05-24, page 11, http://www.whitehouse.gov/sites/default/files/omb/memoranda/fy2005/m05-24.pdf.
The SEC’s Implementation of and Compliance with HSPD-12                                  March 31, 2011
Report No. 481
                                                  40
documentation of visitor badges, specifically noting that visitor badges cannot be
issued in lieu of, or while awaiting, a permanent official SEC badge.

In summary, our audit found that the Physical Security Branch is maintaining
visitor logs for only 90 days, in violation of the NARA records retention
requirement. As a consequence, the Physical Security Branch is unable to
review visitor logs for a sufficient period of time to determine if visitors are
accessing the agency inappropriately (i.e., on a daily basis or in lieu of a
permanent badge). Moreover, OAS does not document the results of its analysis
of visitor data. Due to these deficiencies, the Physical Security Branch is unable
to ensure that individuals are not circumventing the SEC’s HSPD-12 badging
process by repeatedly obtaining visitor badges.

    Recommendation 24:

    The Office of Administrative Services should retain visitor control logs for a
    period not less than two years after final entry or two years after date of
    document in accordance with the National Archives and Records
    Administration’s General Records Schedule.

    Management Comments. OAS concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.

    Recommendation 25:

    The Office of Administrative Services should perform periodic analysis of
    visitor data to ensure that visitors are not circumventing the HSPD-12
    requirements.

    Management Comments. OAS concurred with the recommendation. See
    Appendix VI for management’s full comments.

    OIG Analysis. We are pleased that OAS concurred with this
    recommendation.




The SEC’s Implementation of and Compliance with HSPD-12                  March 31, 2011
Report No. 481
                                               41
                                                                         Appendix I


                        Acronyms/Abbreviations

 CAS                    Civilian Applicant System
 CFR                    Code of Federal Regulations
 COTR                   Contracting Officer’s Technical Representative
 DNI                    Director of National Intelligence
 ED                     Executive Director
 FBI                    Federal Bureau of Investigations
 FIPS                   Federal Information Processing Standards
 GSA                    General Services Administration
 HSPD-12                Homeland Security Presidential Directive
 IAO                    Inspection Acceptable Officer
 MSO                    Managed Service Office
 NACI                   National Agency Check with Inquiries
 NIST                   National Institute of Standards and Technology
 OAS                    Office of Administrative Services
 OED                    Office of the Executive Director
 OHR                    Office of Human Resources
 OIG                    Office of Inspector General
 OIT                    Office of Information Technology
 OMB                    Office of Management and Budget
 OPM                    Office of Personnel Management
 PACS                   Physical Access Control System
 PIN                    Personal Identification Number
 PIV                    Personal Identity Verification
 SEC                    U.S. Securities and Exchange Commission




The SEC’s Implementation of and Compliance with HSPD-12                  March 31, 2011
Report No. 481
                                               42
                                                                       Appendix II


                         Scope and Methodology


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We obtained information from OHR, OAS, and OIT on the SEC’s
implementation and compliance with the HSPD-12. In addition, we surveyed the
SEC’s 11 regional offices’ administrative officers to obtain an understanding if the
agency has consistently implemented HSPD-12 across the board. Further, to
obtain an understanding of the training and/or guidance received by contracting
officials such as CO’s, Contract Specialists, COTRs, and IAOs on the SEC's
HSPD-12 badging policies and procedures, we conducted a separate survey.

We conducted our fieldwork from August 2010 to February 2011. We reviewed
documentation pertaining to the SEC’s implementation and compliance with
HSPD-12 for calendar years 2007 through 2010.

Methodology. To meet the audit objective to determine if the SEC is fully
compliant with HSPD-12 and implementing standards and guidance, we
reviewed the Implementation of Homeland Security Directive (HSPD) 12 – Policy
for a Common Identification Standard for Federal Employees and Contractors,
OMB memoranda and circulars, NIST, and Federal Information Processing
Standards governing HSPD-12, and other governing guidance to obtain an
understanding of the agency’s requirements for implementing HSPD-12. We
developed and issued two separate surveys to specific SEC staff as follows: (1)
one to the SEC’s regional office staff who are responsible for badging or the
administrative functions and (2) one to persons having responsibility for
overseeing contractors such as IOAs, Contracting Officers, COTRs, and
Contracting Specialists. The surveys included questions to determine if badges
were properly seized upon an SEC contractor’s termination from the SEC or
when the period of performance on a contract has ended. The surveys were
further used to determine if consistent practices exist for seizing badges when a
contractor is terminated from the SEC or when a contractor’s period of
performance has ended. We also assessed whether the SEC met the OMB
guidance timeframes. In addition, we conducted interviews with staff in the
OHR’s Personnel Security Branch, OIT, and the OAS’s Physical Security Office
and Contracting Office to discuss their responsibilities related to the HSPD-12
directive.


The SEC’s Implementation of and Compliance with HSPD-12                March 31, 2011
Report No. 481
                                               43
                                                                        Appendix II


To meet the audit objective for evaluating whether the SEC has adequate
controls and the necessary processes and procedures to (1) perform background
investigations, (2) adjudicate results, and (3) issue credentials, we reviewed
documentation that supported the implementation of prior OIG recommendations
to determine if the recommendations were properly closed. We further reviewed
the SEC’s internal policies and procedures, operating procedures, and manuals
that apply to the HSPD-12 directive. Additionally, we conducted interviews with
staff in OHR and OED to discuss their procedures for performing background
investigations, adjudicating results, and issuing credentials.

To meet the audit objective for evaluating the roles and responsibilities for the
HSPD-12 initiative among the various offices involved in the process, including
OAS, OHR, and OIT, we conducted interviews with staff in OHR’s Personnel
Security Branch, OIT, and OAS’s Physical Security Office and Contracting Office
to discuss their responsibilities related to the HSPD-12 directive. In addition, the
survey we developed included questions to determine if staff in the SEC regional
offices that are responsible for badging and persons having responsibility for
overseeing contractors understand their roles and responsibilities for the HSPD-
12 initiative, such as enrolling badges into the SEC’s physical access control
system.

To meet the audit objective for assessing compliance with HSPD-12 and
determining whether all the necessary equipment was purchased to implement
HSPD-12 throughout the SEC, we reviewed the results from the 2010 Annual
FISMA Executive Summary Report, Report No. 489 and conducted interviews
with OIT and OAS staff. Additionally, we developed and issued a survey to the
SEC’s regional office staff who are responsible for badging or the administrative
functions. The survey also included questions to determine if needed equipment
had been purchased to implement HSPD-12 for both physical and logical access.

To meet the audit objective for evaluating whether the HSPD-12 processes and
procedures were consistently applied throughout the SEC (i.e. at headquarters
and the regional offices), the survey we issued included questions to pertaining
to whether HSPD-12 processes and procedures were consistently applied for
badge issuance and enrolling badges into the SEC’s physical access control
system. The survey further included questions regarding whether equipment
was deployed to implement HSPD-12 initiative for both physical and logical
access, and procedures for revoking badges are consistent.

Sampling. We identified a population (universe) of “all” badges that were issued
to SEC staff and contractors at its headquarters and regional offices from FY
2007 through FY 2010. Our universe was determined by (1) reviewing the SEC’s
physical access control system, Diebold Hirsh; (2) reviewing the SEC’s visitor
access control system; and (3) obtaining and reviewing a list of contractors that
was provided by OAS’s Contracting Office.


The SEC’s Implementation of and Compliance with HSPD-12                 March 31, 2011
Report No. 481
                                               44
                                                                       Appendix II


Based on the universe of badges, we developed a testing strategy and verified
that the SEC’s employees and contractors received an SEC badge and/or
HSPD-12 badge based on the Commission’s policies and procedures. From the
SEC’s physical access control log provided by the Physical Security Branch, we
judgmentally selected visitors who visited the SEC’s headquarters at least three
time in a week and up to five times in a week over a 90-day period.

In addition, we judgmentally selected a sample of four contracts that had an
effective date between calendar year 2008 and calendar year 2010 to
determined if the contracts contained Federal Acquisition Regulation clause
52.204.9 as required by OMB Memorandum M-05.24, Office of Management and
Budget (OMB) Memorandum M-05-24, dated August 5, 2005, Implementation of
Homeland Security Presidential Directive (HSPD) 12 – Policy for a Common
Identification Standard for Federal Employees and Contractors.

Prior OIG Reports and Memoranda. The following four prior OIG reports and
memoranda are relevant to this audit:

    •   OIG Report of Investigation No. OIG-544, OIT Contract Employees Given
        Access to SEC Buildings and Computer Systems for Several Weeks
        Before Background Investigation Clearance, issued on January 20, 2011,
        which contained four recommendations to strengthen management
        controls pertaining to contractor access to SEC facilities and information
        systems.
    •   OIG Inspection Report No. 434, Background Investigations, issued on
        March 28, 2008, which contained nine recommendations to strengthen
        management controls over OHR’s background investigation program.
    •   OIG Investigative Memorandum No. G-444¸ Law Student Observer
        Program, issued on June 29, 2006, which contained three
        recommendations to strengthen management controls over OHR’s
        background investigation program, specifically for interns selected through
        the SEC’s Law Student Observer Program.
    •   OIG Audit Memorandum No. 39, Operations Center Building Security,
        issued on July 14, 2005, which contained three recommendations to
        strengthen management controls over building security at the SEC
        Operations Center located in Alexandria, Virginia.

Internal Controls. The GAO Government Auditing Standards, effective January
1, 2008, includes the requirement to understand internal controls that are
significant within the context of the audit’s objectives. The revised standards
indirectly refer to the Internal Control – Integrated Framework (COSO Report),
published by the Committee of Sponsoring Organizations of the Treadway
Commission (COSO) and GAO Standards for Internal Controls in the Federal
Government. The COSO report provides the framework for organizations to
design, implement, and evaluate controls that will facilitate compliance with


The SEC’s Implementation of and Compliance with HSPD-12                March 31, 2011
Report No. 481
                                               45
                                                                       Appendix II


federal laws, regulations, and program compliance requirements. OIG used the
COSO framework to measure the SEC’s control activities. Specifically, we
reviewed the auditee’s internal controls as they pertained to the audit objectives
and applied the COSO framework’s five components to assess whether the
SEC’s controls were adequate and to determine if the SEC had the needed
processes and procedures in place to:

    •   perform background investigations,
    •   adjudicate results, and
    •   issue credentials.

Finally, we assessed the SEC’s controls in determining the roles and
responsibilities of the offices that were involved in implementing the HSPD-12
directive and we evaluated whether HSPD-12 processes and procedures are
consistently applied throughout the agency.

Use of Computer-Processed Data. We did not assess the reliability of the
GSA’s USAccess application, SEC’s physical access control system (HIRSH),
SEC’s visitor badging system (EZLobby/eVisitor), the survey tool (Survey
Monkey), and OMB’s E-Government and Information Technology website (for
HSPD-12 Implementation Status Reports) because these applications and
systems did not pertain to our audit objectives. Further, we did not perform any
tests on the general or application controls over these automated systems, as
this was not in our scope. The information that was retrieved from these
systems, as well as the requested information that was provided to us was
sufficient, reliable, and adequate to use to meet our stated objectives. In
addition, we reviewed the following computer processed data (e.g., Excel
spreadsheets) that OHR and OAS staff provided OIG:

    •   list of current contractors,
    •   list of employees with no investigation or noncompliant investigation over
        15 years, and
    •   list of employees with an investigation over 15 years who were
        grandfathered.




The SEC’s Implementation of and Compliance with HSPD-12                March 31, 2011
Report No. 481
                                               46
                                                                    Appendix III


                                         Criteria

Homeland Security Presidential Directive 12 (HSPD-12), Policy for a
Common Identification Standard for Federal Employees and Contractors.
This directive established the requirement for a mandatory, government-wide
standard for secure and reliable forms of identification issued by the federal
government to its employees and contractor employees assigned to government
contracts in order to enhance security, increase government efficiency, reduce
identity fraud, and protect personal privacy.

Office of Management and Budget (OMB) Memorandum M-05-24, August 5,
2005, Implementation of Homeland Security Presidential Directive (HSPD)
12 – Policy for a Common Identification Standard for Federal Employees
and Contractors. This memorandum provides implementing instructions for the
HSPD-12 Directive and Federal Information Processing Standard 201.

Department of Commerce’s Federal Information Processing Standard
(FIPS) 201-1 – Personal Identity Verification (PIV) of Federal Employees and
Contractors. Establishes the minimum requirements for a federal personal
identity verification system (PIV-I) and detailed technical specifications of
components and processes required for interoperability of PIV credentials (PIV-
II).

SEC Administrative Regulations, Identification Cards, Press Passes and
Proximity Access Control Cards, SECR5-2, November 8, 1999. This
regulation prescribes policies, procedures, and standards that govern the
Securities and Exchange Commission's (SEC) identification cards.

USA Access Program, PIV Card Issuer Operations Plan, Version 1.0,
August 1, 2007, CM# GSA-DI-0000129-1.4.0. The PIV Card Issuer Operations
Plan describes the operations and procedures at the MSO and agency levels,
including the assignment of PIV roles and responsibilities.

NIST, A Recommendation for the Use of PIV Credentials in Physical Access
Control Systems (PACS), November 2008, Special Publication 800-116. This
publication provides recommendations for the use of Personal Identity
Verification credentials in physical access control systems.

Federal Acquisition Regulation (FAR) 52.204-9, Personal Identity
Verification of Contractor Personnel. The FAR is the principal set of rules for
federal acquisitions. It consists of regulations that govern the process through
which the government acquires goods and services. As required by FIPS 201
and OMB M-05-24, contracts and solicitations that require contractors to have


The SEC’s Implementation and Compliance with HSPD-12                 March 31, 2011
Report No. 481
                                              47
                                                                        Appendix III


routine physical access to a federally controlled facility or routine access to a
federally controlled information system should contain this provision.

Executive Order 13467, Reforming Processes Related to Suitability for
Government Employment, Fitness for Contractor Employees, and Eligibility
for Access to Classified National Security Information. This Executive Order
provides the executive branch’s policies and procedures relating to suitability,
contractor employee fitness, eligibility to hold a sensitive position, access to
federally controlled facilities and information systems, and eligibility for access to
classified information. It provides that these policies and procedures are to be
aligned using consistent standards to the extent possible, provide for reciprocal
recognition, and ensure cost-effective, timely, and efficient protection of the
national interest, while providing fair treatment to those upon whom the federal
government relies to conduct the nation’s business and protect national security.




The SEC’s Implementation and Compliance with HSPD-12                     March 31, 2011
Report No. 481
                                              48
                                                                         Appendix IV


                       List of Recommendations

Recommendation 1:

The Office of Human Resources should immediately prepare formal, documented
plans for initiating background investigations for all current employees who do
not have successfully adjudicated background investigations on record,
commensurate with risk.

Recommendation 2:

The Office of Human Resources should immediately, but no later than 90 days
after the issuance of this report, initiate background investigations for all current
employees who do not have successfully adjudicated investigations on record,
commensurate with risk.

Recommendation 3:

The Office of Administrative Services should identify and develop a consolidated
list of all contractors who are employed by the Commission. In addition, the
Office of Administrative Services should coordinate with the Contracting Officer’s
Technical Representatives and Inspection and Acceptance Officials to implement
policies and procedures for ensuring that the list remains up to date.

Recommendation 4:

The Office of Administrative Services should provide the Office of Human
Resources Personnel Security Branch with a copy of the up-to-date consolidated
contractor list on a weekly basis.

Recommendation 5:

Upon receipt of the up-to-date consolidated contractor list, the Office of Human
Resources Personnel Security Branch should determine which contractors do not
have successfully adjudicated background investigations on record and develop
a plan to begin the required background investigations immediately.

Recommendation 6:

Upon receipt of the up-to-date consolidated contractor list, the Office of Human
Resources should ensure that accurate status reporting has been made to the
Office of Management and Budget.



The SEC’s Implementation and Compliance with HSPD-12                      March 31, 2011
Report No. 481
                                              49
                                                                      Appendix IV


Recommendation 7:

The Office of Executive Director should discontinue adjudicating all eligibility
determinations for access to classified information or holding a sensitive position
until the Securities and Exchange Commission has received an appropriate
delegation of authority to conduct such determinations from the Director of
National Intelligence.

Recommendation 8:

The Office of Executive Director should identify all eligibility determinations for
access to classified information or holding a sensitive position adjudicated by the
Securities and Exchange Commission since June 30, 2008, and, upon receipt of
authority from the Director of National Intelligence, conduct a quality control
assessment to ensure that the determinations were conducted in accordance
with the uniform policies and procedures developed by the Director of National
Intelligence.

Recommendation 9:

The Office of Executive Director, upon receipt of authority from the
Director of National Intelligence to make eligibility determinations for
access to classified information or holding a sensitive position, should use
the uniform policies and procedures developed by the Director of National
Intelligence when making such determinations.

Recommendation 10:

The Office of Administrative Services should immediately discontinue making
eligibility determinations for persons requiring temporary access to Securities and
Exchange Commission facilities or information systems without proper
authorization.

Recommendation 11:

The Office of Administrative Services should immediately provide the Office of
Human Resources Personnel Security Branch with a list of all persons who have
been provided or denied access based on the Physical Security Branch’s risk
assessments, as well as a copy of all fingerprints records, supporting
documentation, and the results of the risk assessments.




The SEC’s Implementation and Compliance with HSPD-12                   March 31, 2011
Report No. 481
                                              50
                                                                       Appendix IV


Recommendation 12:

The Office of Human Resources, in coordination with the Office of Administrative
Services, should develop policies and procedures for determining the eligibility of
contractors and visitors and guests requiring temporary access to Securities and
Exchange Commission facilities or information systems.

Recommendation 13:

The Office of Administrative Services should communicate to regional office staff
its expectations for enrolling Personal Identity Verification credentials into their
physical access control systems and using the Personal Identity Verification
credential as the primary badge for physical access to Securities and Exchange
Commission facilities.

Recommendation 14:

The Office of Administrative Services should require administrative officers in the
regional offices, or designated points of contact, to enroll Personal Identity
Verification cards in the Securities and Exchange Commission’s physical access
control system.

Recommendation 15:

The Office of the Executive Director should communicate to all Securities and
Exchange Commission employees and contractors their responsibility to inform
the appropriate regional office official that they have been issued a Personal
Identity Verification card so that the card can be enrolled into the Securities and
Exchange Commission physical access control system.

Recommendation 16:

The Office of the Executive Director should develop and implement a policy
requiring the Personal Identity Verification badge to be used as a common and
primary means of authentication for physical and logical access.

Recommendation 17:

The Office of Administrative Services should revise and update its Identification
Cards, Press Passes and Proximity Access Control Cards policy to reflect current
and proper practices for issuance and revocation of badges, including Personal
Identity Verification cards, to Securities and Exchange Commission employees
and contractors at all Commission facilities and post the revised policy on the
Commission’s intranet site. In addition, the Office of Administrative Services
should communicate the new policy to all employees and contracting officials.


The SEC’s Implementation and Compliance with HSPD-12                    March 31, 2011
Report No. 481
                                              51
                                                                     Appendix IV


Recommendation 18:

The Office of Administrative Services should develop and implement a plan to
systematically revoke all Commission-issued badges for all employees and
contractors who have been issued Homeland Security Presidential Directive 12
badges and ensure that the plan is implemented no later than 6 months after the
date this report is issued.

Recommendation 19:

The Office of Human Resources should develop, implement, and post in multiple
locations (e.g., agency intranet site, human resources offices, regional offices,
contractor orientation) its appeals procedures for individuals who are denied
credentials or whose credentials are revoked.

Recommendation 20:

The Office of Human Resources should develop internal policies and procedures
for suitability determinations for foreign nationals.

Recommendation 21:

The Office of Information Technology should immediately conduct an audit of its
inventory to identify and track all keyboards and laptops that contain card
readers.

Recommendation 22:

The Office of Information Technology should promptly deploy appropriate
technology (e.g., laptops with internal card readers, keyboards with card readers,
or external card readers) to employees and contractors who do not have card
readers.

Recommendation 23:

The Office of Information Technology should eliminate one full-time registrar and
split the time of the other full-time registrar between the Operations Center and
headquarters locations.

Recommendation 24:

The Office of Administrative Services should retain visitor control logs for a
period not less than two years after final entry or two years after date of
document in accordance with the National Archives and Records Administration’s
General Records Schedule.


The SEC’s Implementation and Compliance with HSPD-12                  March 31, 2011
Report No. 481
                                              52
                                                                     Appendix IV


Recommendation 25:

The Office of Administrative Services should perform periodic analysis of visitor
data to ensure that visitors are not circumventing the HSPD-12 requirements.




The SEC’s Implementation and Compliance with HSPD-12                   March 31, 2011
Report No. 481
                                              53
                                                                          Appendix V


                       Schedule of Cost Savings

                 Table 5. Schedule of Cost Savings
                  SEC’s Registrar Salaries                      Cost
                                                               Savings

                  Eliminate 1 full-time SEC registrar salary    $72,000
                  at $72,000/year

                  Eliminate ½ full-time SEC registrar salary    $36,000
                  at $36,000/year
                  Total                                        $108,000
                Source: OIG-generated.




The SEC’s Implementation of and Compliance with HSPD-12                   March 31, 2011
Report No. 481
                                               54
                                                                                            Appendix VI


                           Management’s Comments




                                           MEMORANDUM



 TO:             H. David Kotz
                 Inspector General

 FROM:           Diego T. Ruiz,          Vl--i~
                 Executive Director
                 Office ofthe Executive Director (OED

                 Jeffrey A. Risinger     ~ C\ (7 - .
                 Associate Executive 0   t                 . ~
                 Office of Human Resources (OH )

 DATE:           March 28, 2011

 SUBJECT:        OED/OHR Joint Response to Report No. 481, Draft Implementation ofand
                 Compliance with Homeland Security Presidential Directive 12

        ~ memorandwn provides the OED and OHR response to OIG Report No. 481, dated
 March 10,2011. The OIG report contains 12 recommendations directed to OED and OHR
 (recommendations 1,2,5,6,7,8,9,12, 15, 16, 19,20). The report's remaining
 recommendations, which are directed to the Office ofAdministrative Services and the Office of
 Infunnation Technology, willl:!e respondect to in separate memorandwns from those offices.

       We concur with each ofthese 12 recommendations directed to our offices, and will take
 immediate action to develop a corrective action plan to address these recommendations.

         We also want to provide additional management comments with respect to two specific
 recommendatio~:                        .

 Recommendation 7: The Office ofExecutive Director should discontinue adjudicating all
 eligibility determinations for access to classified infunnation or holding a sensitive position until
 the Securities and Exchange Commission has received an appropriate delegation of authority to
 conduct such determinations from the Director ofNational Intelligence (DNI).

  OED Response: OED concurs with this recommendation and has initiated contact with the DNI
  to obtain the necesSary delegated adjudication authority. Should this process take longer than
  several weeks, even fur an interim adjudication authority, we may be faced with the need to make
. adjudications of current investigations. The OED ·wiiI work e~itiously.tocomplete this
  recommendation and will keep the OIG infurmed about progress. and developments related to its
  completion. .




 The SEC’s Implementation and Compliance with HSPD-12                                         March 31, 2011
 Report No. 481
                                                      55
                                                                                     Appendix VI




                                                                                                 2

Recommendation 8: The office of Executive Director should identifY all eligtbility
detenninations fur access to classified infunnation or holding a sensitive position adjudicated by
the Securities and Exchange Conunission since June 30, 2008, and, upon receipt of authority from
the Director ofNational Intelligence (DNI), conduct a quality cOntrol assessment to ensure that
the determinations were conducted in accordance with the unifurm policies and procedures
developed by the ON!.

 OED Response:· OED concurs with this reconnnendation and will conduct a quality review of
 eligibility determinations made by the SEC after June 30, 2008. These determinations were made
 consiStent with E.O. 12968, and based upon t.he December 2005, Revised Adjudicative
 Guidelines for Determining Eligibility for Access to Classified I'!formation. With only slight
 modifications in one area, these same guidelines have been adopted by the ONI in their Personnel
 Security Adjudicative Guidelines for Determining Eligibilityfor Access to Sensitive
 Compartme~dI'!formation (SCI) and Other Controlkd Access Program Information (IC
.Directive No. 704.2, effective October 2. 2008). Based on the similarity between the current DNI
 adjudicative guidelines and the 2005 guidelines used by the OED to adjudicate the post June 30,
 2008 cases, it is our belief that upon review these detenninations will meet the current DNI
 adjudicative standards.

       Thank you fur your fucus on this important area of agency operations, and fur allowing us
the opportunity to respond. If you have any questions regarding our response, please contact
Carl Schilling at (202) 551-4358.




The SEC’s Implementation and Compliance with HSPD-12                                   March 31, 2011
Report No. 481
                                                 56
                                                                                    Appendix VI




                                        MEMORANDUM

                                         March 24, 2011


     TO:           H. David Kotz
                   Inspector General

     FROM:         Sharon Sheehan·      .1L•• ~"Il1 e 1 .
                   Associate ExecutivG~or
                   Office ofAdministrative Services

    SUBJECT:       OAS Management Response to Draft Report No. 481, Implementation of
                   and Compliance with Homeland Security Presidential Directive 12

    This memorandum is in response to the Office of Inspector Genera!'s Draft Report No.
    481, Implementatian ofand Compliance with Homeland Security Presidential Directive
    12. Thimk you for the opportunity to review and respond to this report. We concur with
    the nine recommendations addressed to OAS in the report and have begun tak;ing
    appropriate steps to implement them.

    Recommendation 3:

     OAS concurs. OAS Security Branch wiJI maintain a list of all contractors who are
     employed within the Commission, and develop policies and procedures for ensuring the
    ·list remains current.

    Recommendation 4:

    OAS concurs. In the policy or procedures guide, OAS will establish the frequency and
    method oftransmittal of the consolidated list of contractor personnel employed within the
    Commission to the OHR Personnel Security Branch.

    Recommendation 10:

    OAS concurs. OAS will discontinue making eligibility determinations for persons
    requiring temporary access to the SEC and iristead tum over the responsibility to the
    OHR Personilel Security Branch.                   .

    Recommendation 11:

    OAS concurs. OAS Security Branch wiJI tum over all documentation in its possession
    relating to the risk assessments conducted including lists ofpersons who have either been
    denied or granted access to SEC space and copies of all fingerprint records.




The SEC’s Implementation and Compliance with HSPD-12                                 March 31, 2011
Report No. 481
                                                57
                                                                                     Appendix VI




    Recommendation 13:

    OAS concurs. OAS Security Branch will provide guidance to Regional Office (RO) staff
    on the requirement to enroll personal identity verification (PlY) credentials into the RO
    physical access control systems. Guidance will also designate the PlY credential be the
    primary badge fur physical access to SEC filcilities.

    Recommendation 17:

    OAS concurs. OAS Security Branch will update the existing Identification Cards, Press
    Passes and Proximity Access Cantrol Cards policy and post a revised access policy on
    the SEC intranet site.

    Recommendation 18:

    OAS concurs. OAS Security Branch will develop and implement a plan to systematically
    revoke all SEC-issued badges fur all employees and contractors who have been issued
    HSPD-12 credentials. OAS will implement the plan within six months ofthe date of the
    final 01G report.

   .Recommendation 24:

    OAS concurs. OAS Security Branch discussed this recommendation with OIT. OITlIas
    confirmed that they will retain visitor control logs as specified in the National Archives
    and Records Administration's General Records Schedule.


    Recommendation 15:

    OAS concurs. OAS Security Branch will perform regular reviews of visitor logs to ensure
    visitors are not circumventing the HSPD-12 requirements.




The SEC’s Implementation and Compliance with HSPD-12                                  March 31, 2011
Report No. 481
                                                58
                                                                                              Appendix VI




                                             MEMORANDUM



TO:                 H. David Katz, Inspector General, Office of Inspector General

FROM:               Thomas A. Bayer, Director, Office of Information Technolo




RE:      Office of Information TechnologY's Response to the Office of Inspector General's Report,
Implementation of and Compliance with Homeland Security Presidential Directive 12, Report No. 481

DATE: March 25, 2011



This memorandum is in response to the Office of Inspector General's (DIG) Draft Report No. 481
entitled, Implementation of and Compliance with Homeland Security Presidential Directive 12. Thank
you for the opportunity to review and respond to this report.



OIG   Recomm~ndatJons:


The draft report had three recommendations for the Office of Information Technology (OIT):

Recommendation 2J: The Office of Information Technology should immediately conduct an audit of its
inventory to identify and track all keyboards and laptops that contain card readers.

OIT concurs with this recommendation and is presently conducting an audit of its assets to identify all
laptops and desktops that do not have HSPD-12 complaint keyboards/card readers. This effort will be
complete within the next 30 days.

Recommendation 22: The Office of Information Technology should promptly deploy appropriate
technology (e.g., laptops with internal card readers, keyboards with card readers, or ext!rnal card
readers) to employees and contractors who do not have card readers.

OIT concurs with this recommendation and upon completion of the asset audit to identify all laptops
and desktops that do not have HSPD-12 complaint keyboards/card readers, QIT will deploy complaint
devices to all SEC staff and contractors. This effort will be complete within the next 90 days.

Recommendation 23: The Office of Information Technology should eliminate one-full time registrar and
split the time of the other full-time registrar between the Operations Center and Headquarters locations.

OIT concurs with this recommendation and will eliminate one full-time registrar after the ISS contract
transition at the Operations Center. This effort will be complete within the next 120 days as the registrar
contract expires.




The SEC’s Implementation and Compliance with HSPD-12                                              March 31, 2011
Report No. 481
                                                       59
                                                                      Appendix VII


      OIG Response to Management’s Comments

We are pleased that OAS, OED, OHR, and OIT have concurred with all of the
report’s 25 recommendations. We are also encouraged that these offices have
indicated that they have already taken steps to implement the recommendations
and have also, in several cases, provided timelines for when additional steps will
be taken.

The OIG audit found deficiencies in nearly every aspect of the SEC’s HSPD-12
program, as well as significant concerns about the SEC’s authority to determine
eligibility for access to classified information and the current process for granting
temporary access to SEC facilities. Swift implementation of all of the report’s
recommendations is critical to ensuring that the SEC becomes compliant with the
HSPD-12 directive.




The SEC’s Implementation of and Compliance with HSPD-12                 March 31, 2011
Report No. 481
                                               60
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
